HO.

20-7717

r r

" H H

:
m THE

v_>

i

StSKEME COURT OF THE UNITED STATES
Chadd Ao Dfcrtis

l—i

L-i

'S^—^ »“•

4—»

k_l

u i_J

L_* I

Supreme Court. U.S.
FILED

FEB 05 2021

PisantifS/Patitioner (Ero-Se)
OFFICE OF THE CLERK

VS.
Qssgg Scott, Shan Joopsr, Diana Dobiar, Rebacca aausenga, Ashley rairfrt^ Kara Sheldon
Bdtney Bstiford, Todd K&ody, Sandra Simpson, Paul Vincent
Respondents

to Petition Ebr a Wcit of Certiorari to the united States Quart of aypaatc
And the United States DistE&st of rmni-rta

E®$^.tion For writ of certiorari

Chadd a. Morels
■Ulinois Dsparfcnisnfc of Bmerr Services
Treatment and Detention Facility
17019 County Bum Road
Rushvllle, Illinois 626S1
217-322-3204

Par the Seventh Circuit

QUESTIONS PRSENTED FOR REVIEW
The lower courts having prejudicated this plaintiff, with judicial misconduct, error beyond harmless, amounting to
structural, and manifest in the following issues:
1) When making rulings thought the plaintiffs litigation, courts failing to comply with controlling, precedential case
laws/legal standards, cited in plaintiffs writ herein.
2) Courts when granting defendants summary judgment, having construed facts in their favor, against controlling legal
standards, precedential case law, cited herein, requiring, and obligating courts to construe and favor the “non moving
party” which is this plaintiff. Courts failed to apply the conflicting documentations plaintiff provided to show how
defendant’s professional judgments were falsified by having solely relied on defendants “conclusionary” labels and
failing to credit plaintiffs proof he provided that defendants labels give a false and misrepresented assessment of
plaintiffs treatment. In courts summary judgment order falsifies the record intentionally by putting false words in
plaintiff’s mouth claiming defendants can’t provide treatment because facility rules prohibit residents from having sex
with each other.
3) Courts failed to apply and credit, that of plaintiffs evidence he submitted (defendants treatment progress notes) largely
has required “behavioral management” and defendants claims as documented that is why plaintiff cant progress
courts failed to apply that “behavioral management” as majority methods of treatment issuing are in fact identified as
not sufficient to produce long term changes in clients which amounts to inadequate treatment. Defendants treatment
issuing and program in general entertains, threatens and intimidates clients to “give up his constitutional rights”, i.e.
requiring self incrimination.
4) Courts, while granting defendants summary judgment, allows defendants to avoid liability and continue such violations
because of being absent of court orders requiring systemic changes, which is require by controliing/precedential case
law/legal standards plaintiff cited herein this writ.
5) Courts, while granting defendants summary judgment “cherry picked” defendants documentations, and plaintiffs
evidence filed with the courts and during discovery to intentionally and deliberately leave out anything that showed
legal liability against defendants to essentially block plaintiff from prevailing.
6) Courts failed to comply with controlling/precedential case law/legal standards that obligate courts to “put defendants
professional judgments and documentations” through “litmus test” of compliance to standards sex offender treatment
regulations as cited in cases plaintiff cited herein this writ.
7) Courts throughout this litigation failed to locate a willing attorney/counsel/expert witness for the plaintiff. Since this
case requires plaintiffs challenging of defendants professional judgments, precedential/controlling legal
standards/case law, plaintiff cited herein this writ.
8) Courts failed to comply with legal standards that permit plaintiff to prevail on criminal violations made by defendant.
9) Courts in summary judgment fails to comply with controlling/precedential cases law/legal standards that obligate
courts to rule based on law, and not based on their personal judgment, and preference of the litigant, which is by
cases plaintiff cited herein this write. The courts did this by seemingly failing to allow plaintiff to prevail, in spite of
multitude of fruitful evidence by preponderance of evidence, courts rather seemed to deliberately and intentionally
block plaintiff form prevailing because of his confinement at the facility, relying solely on defendants professional
judgment.
10) Courts, while granting defendant’s summary judgment, then permits them to continue such inadequate and
constitutional offensive treatment methods by only allowing some treatment and not meeting the 14th amendments
standards of “adequate” treatment sufficient for one to be released.

TABLE OF CONTENTS
Table of Authorities

«l • « 4 *

Openions Below * •

* * 0

**»»«•#«

**
«*

Jurisdiction’.

»

V * 9 *

Reasonings For Granting the Writ*
Conclusion

•*

0*0

*

*

■•

0 * * w »

*

1

♦ *

1

* * a * 9

* ®

3

16
• • • 27

*•

«««•*

37

*

* -p

*«

»**••*«

Proof of Service

*e«*-a«*«*

« » « 4 B

B It # l> »

*tS*****»**B

• ♦ « »

(iii)

* •»

*

Constutional and Statutory Provisions Involved
Statement of The Cass • « « -r. * «

(i)

em*-000a«.O»

*•*■«*►»»»**#•

69

tauaa’

Appendix "A"

e * -*

Appendix »B*'
Appendix

”C"

0

4

#*■>»*

ft

9

ft

0

End

0*0

«

•

Appendix

ttEt.

Appendix

Itplt

*•**

• » B « 9

* V

fl

End

« fc

Appendix "D".»*
\

* End

*

End

C

End

* ♦

0

• ft

* 0 0

1* • • «r

End

isms 0^ msscum^s gam
Chses
Allison V. Snyder 332 f 3d 1076 1079 (7th cir 2003)

17, 24
Brown vD Burlington 765 f 3d 755 (7tn cir 2014) (Citing Daubart V. Merrsil Dow Eharmacaticals me
509 U.S. 579 (1933)......,,.

9s 25P 23

0 9.-

Brown V. Plata 563 O.S„ 493

.■11, 36
11

Burton V. Richmond 370 f 3d 723 729 (8th Cir 2004)

11, 26-

Babcock. V. Whits 102 f 3d 267 (7th dr 1996)
Bsacy V. Groadin 712 f 3d 1012 (7th cir 2013)

* 000 • r a « o

e«aaflaaov«a*oo*aa

c a

Bennett V. Bigelow 397 f 3d 1016 1027 Utah (2016).
Citizens Uhited V. Federal Election Commission 558 U.S. 310 130 s cfc 872 (2010)
Carter V. Garter 298 U.S. 56 s ct 355 (1935)

co»t««c»6et»s*e4

ODUignon V. Milwaukee City 163 f 3d 982 989 ( 7th cir 1993)..
Cameron V. Domes 783 f supp 1511 1524-25 (D. Mass 1992)
County of Sacramento V. Lewis 523 U.S. 833 (1998)...
Dewait V. carter 224 f 3d 607 612 (7th cir 2000)

e99O9O0O70a««»*

9, 26-

T3«tft«0»00*0

aaooaao*«aa*«

000000

* a aa

»«*aaaaaa««ae«aa

»«O9*4»«09

-11, 26
*

•a»»a»aa

e«O»0*«^**4C0*4«s«t0«ooag«««o«s0«t>o«4960

DsubsrS V. Kartell Dow Fharmacuticals me 509 U.S. 579 (1933)...

10, 26

0a*9*9*4»*00»9ee

»*09tO9»O90|fi94»»0?V4>e>*

• ••«**»99*4«94

14
r
9, 25

10
BW

7
8, 25s 28

<*0000090

9 0 0

Rriends of the Earth Inc. V. Isidlaw Bavtl. Ssrvs me 528 U.S. 167 189 120 s ct 693 145 1 ed 2d 610
8, 26
(2000)......
•«» «»»*»»**
C««ie-l««A«t«0Sta«90«49«04O0»»»<«4««t40««««01)*

Erisby V. Schultz 487 U.S. 475 93 s ct 2495 (1988) ............. .............................
Griffin v. County School Bd. Of Prince Edward County 377 U.S. 218 84 s cfc 1226
Governor V. Lt. Govemer 193 Ill 2d 467 Ill Dec 131 444 M.E. 2d 170 (1983)

....
9Q«BD0>9Ofe«

....

% 25
715 •5~'
25
8
7, 25

o o « *

KoItjsiihi!! V. Schlissinger 414 U.S. 1304 94 s ct 1 (1973)...................

Kaffiord V. McBsney 2000 WL 536847 *n7 (9th cir 2001) (Quoting Brewster V. Board of Bdeuation 149 f
3d 971 932 (9th air 19SS)........................................................................................................................

Hildebr-aaat V. Illinois Department of Natural Resources 347 f 3d 1014 1039 (7th cir 20031
Heard V. Sieahan 253 f 3d 316 320 (7th cic 2001)

8
13
14, 26

904909991

SO499«9*9»f949949«49999949»0«99ft4*4«»l)»jtt

In Ra Soofct CSaty Master Docket 672 f supp 1152 1165 (D. Mina 1987)

eo»0«4«44«

m Re M.H. 195 Ill 2d 356 352 255 Ill tec 297 751 N.E. 2d 1134 (2001)

«99e«»4»9

* 0 0 » 0 ' 0

«4»A00«94e

Johnson V. U.S. 565 77 s ct 550 (1957)..............

....11
9. 25
a * v a

13

Jackson V. County Of McLean 953 f 2d 1070 1073 (7th cir 1992).
Johnson V. simmer 936 f 3d at 707................
Johnson v. Johnson 385 f 3d 503 524

12
.

12, 26
t

• e»94»l«9044190»es«»40904*499*Aa9»an>»«t9*9«4**fl94

Koontz V. Sfc. John's River water f&nagmsnfc District 570 U.S. 595 133 s ct 2568 (2013)

• 9 * • *•

• 00000000

13

7, 25

Kikumura V. Turner 23 f 3d 592 (7th cir 1994)..............

8„ 25

Kars jens V. jessoa 109 f supp 3d 1139 1172 (D. Kim 2015)..

• 10, 17, 2o

Khrsjens V. Pipar (Appeal

15-3485) (Amies Curie)
(i)

OOS40«B»3090O0ee<*0000»09(i»£a«O00«4a4««eoa«a«

Ipuisanna V. Naacp 366 U.S. 293 2S7 81 s ct 1333 (1951 ).

♦ ♦•fl**i»»**#»««***#***#*#***********

..JO, 2S

Marlin Vo Hunters Leases 14 UoS. 304 1816 WL 1721 1 ed 97

•7,.25-s

Michael Hughes V. James Dimas at aL, u.S.C,D. No: 4:15-cv-Q4163-JES; Appeal NO: 16-1818 00*o3 17, 25
Miranda V. Cty of lake 900 f 3d 355

o d »»e*»®9.,**p**9o#»****o*o«*©**®*o®*****aw»*****«»*«*»*e

...12, 26

.......11

Mentin V. Gibson 718 f 3d 752 755 (3th dr 2013)
Murphy V. smith 844 f 3d 653 (7th cir 2016)

*14, 26
.T2, 28

»•*« *♦*»♦»«•«***»

Chlinger V. Vfitsoa 652 f 2d 775 (8th cir 1980)

o*o*****«*a«o*

% 25, 23

Ggdsn. V. Atterbolt 605 f 3d 355 353 (7th dr 2018),
People Sc Rel Miller V. Holtz 327 HI 433 (1927) .»

‘J •» © O «•

S 9 »•

8

.19, 25
»e«o«Q« 9, 26

People V. Ihorpe 52 HI App 3d 576 367 N.E. 2d 960 (1977).
People V. Leavitt 2014 APP 1st 22 N.E. 3d 430 ............
f&Ce v. Stevens 163 f 3d 437 (7th cir 1998)
Sorrell V. IMS Health Inc 564 U.S. 552 131 s ct 2653 (2011)

«•«» 1 **•♦* 9

Stanley V. Illinois 405 U.S. 547 92 s ct 1209 (1972)
San. Diego Citizens Far Quality Bdcuation V. Barrera 2018 WL 4539700 ......

0*00**ie«*090»09®*«0»***9-0909-*ap*»

Schultz V. Illinois 237 HI 2d 391 330 K.S. 2d 943 341 Hi Dec 429 (2010)

..•8, 26

• a»»

, S, 26
. 8, 26

O O • t » « ft « •

»e«*ocao«o

<10, 26

Sain V. Wood 512 f 3d 836 895 (7th dr 2009)

.13, 26

Smith V. Rowel f 2ri 360 360 (7th dr 1985) .

.. 13

oa*oo»*«»*******-e®«*«<*«*®»0fl***«*0«*®‘**'*,**0*0*<>OOC6

Turay V. Sealing 108 f 2d 1148 (9th cir 2004)

U.S. V. Phosphate Expport 393 U.S. 199 39 s ct 361 (1968)
U.S. V. ULC V. Kim 335 £ supp 3d 600 N.E. Ill (2019)

' 8, 26

eftftftftftftftftfto*

•»»ft9«ftP9fteftfteftfl««»ftS9ft7ftO»4«fftftft

...a....(14, 26
.,14. 26

U.S, V. Van Behren 322 f 3d 898 (2008)
U.S. V. Calvert-Cata 2017 WL 478597

12, 26

a0«0*OO*0*9*90*0-90*09*«4«J»000»e*ft,*O*0*S»»no«S«009

O»O«0C9»»e»*ftftIftft>»«ftBft*ftftft<*P***»aO**v****,>o*'**44*’,**9e

Washington V, Glucksburg 521 U.S. 702 719-20 117 s ct 2253 2267 (1917)

o»ft*9fte6o*g«eo«ftooft»i»t

. 9, 26

...‘8, 25

Wastes V. Hocigea 371 £■ sup:? 311 (&.D. lad 2012) ..........

WaXdridge V. Amariowi Haechst 24 f 3d 918 (7th cir 1992)

.14, 26

ftftftftftftftftftftftftftftftnftftftftftftftftofteftftftftfteftftoft

.11, 26

Willis V. Palmer 175 f supp 3d 1081 N.D. Iowa (Mar 2016)
Youngbsrg V. Romeo 457 U.S. 307 321 s ct 2542 731 1 ed 23 (1982)

•10, 26 .

Oftftftftftftftftftftfttftftftftft

.12, 17, 28

SMUIIgS AND RUI5S
720 I.L.C.S. 5/33-3 "Offical Misconduct"
720 I.L.C.S. 5/12-21 "Criminal Souse or
Section 12-21

5, 26
of an Elderly Person, or Parson With a Disability"
5, 26
ftl«Oftt9OO0ftftO8ll

99ft9ft*090*«*««ft*®B*BB*®***®*,****##

720 I.L.C.S. 109/40

«9*«OftftB9

720 I.L.C.S. 207/55 (a) - (b)

990«ftftB«BBBftftBBB0»BB

0 0*9 »«00»00»OB 9***0P*OP***«<»*«««****«»**’«OO*BOB*****®0***0***

local Rules of Federal Rules of Civil Procedure 7.1 (d) (Pfc. 6) (exceptions)

(if)

o.o 10, 17

ftBaftftfftABftOoeoBftOfl

7, 26

Special Relationship Doctrine ».

6, 13, 25

Special Duty Doctrine
O eS 5

Government laws Doctrine
®

4 a * « • » ««*e»»«oe40

18, 25

Ss 1Sa 25

Stare Decisis ....

6, 13, 25
18 U.S.C.A., "Gramas and Criminal Procedure", Ktrt 1, Grimes, phapt-ai- 13. .carj-ion 24V 5, 26
42 U.S.C. Section 1983 _________ _____ ______________ ____________
,4
28, U.S.C. section 1257
4’
28, U.S.C. Section 1331
•« » <4
*»eo»*««»e«««eo0*»«#»s«o«oo»eee«

HtXe
Title
'title

c e o

• o4-*&eo*»aeooa*eoaee9oeoo*4e0 » * * e c o 0

Title

•••••et«*fe4«v»aA«,4,000#a

Title 28 U.S.C. 1343

4* 26

Title 28, U.S.C. 1357
Title 28, U.S.C. 1367 ....

4
« « 0 BC

i

• Ofl««0«0»0«00t«O9««4Ce44t0tVf44>a000^ • 0*B*Bt«0«BOe0B,B0ag400a0a0(0p

ISiited States CPnstution, Amendment 1
United States Gonstution, Amendment 5

0»0«»*00B«a0aeo04

«0«a0B««««««»ac0»«Bt«6««,«a

...3-

004Ba0*0«»00*«Bte00«000»« *t«a*0«4««00BBe«00««B«0aaa(SO4,
• 0040

Ganstution From Sis State of Illinois, Section 12, Right to Remedy and Justice
Ganstution Boot the State of Illinois, Section 23, Fundamental Principals ....
Cbnstuticn Erom the State , Section 24, Sights Retained..

• 0rf»0fDBBB«Ba0«4oagaa0aga9|l6t f«00»»ll»««i

Illinois Administrative Code. Title 20, Section 1905.80 <b) (1)

Ott«»«««0 0«a*0

Illinois Administrative Cede, Title 20, Section 1905.100 {a) {7}.

3

a0«e«6B0«t*0o*«»B«o«^

» o » • • t>

3
3

DTj, 24
14

0«B*Ot0«0BBaOO«V|,aag0aoa

Illinois AdminiSstrative Code, Title 20, Section 1S05.100 (o) (3) (C)...

. 14

Illinois Adainistrative Gode, Title

20,Section 1905.100 (c) (2)

Illinois Administrative cafe, Title

20,Section 1905.100 (c) (6)

Illinois Administrative Code, Title

20,Section 1905.100 (c) (7) ......

Illinois Administrative Code, Title

20,Section 1905.100 (c) (8)

000B « 0

Illinois Administrative Ode. Title

20,Section 1905.100 (c) (9)

40*eBO0a«00a0>«0

Illinois Administrative Code, Title

20,Section 1905.110 (d) (3) .......

IS
i5s 17

000000000000000000000

»«0«0i|»a0«»00«ee«0000Ol, o e «

» • 0*0 0

•oeo**v06««»e#*»*es

.15

15, 24
17

........ ,15

Otnsr
Pf principals for the Protection of AH Parsons under Any FDrm Of Detention or IBprisiatEisnt,
Principle 7.2
. '7

(iii)

IS 5?®

SUPREME COURT 0? THE iMETSD SPATES
PETITIOM FOR K=UT OF CERTIORARI

Fatitiffiisr/PIaintlff respectfully prays that a writ of Cfertiorari is issued to review the
Judgments Below:

OPE«IC8S BEtCW

sOR CASES FROM FEDERAL COURTS:
The Cpsnion of -the United States Court of appeals appears at Appendix !,B!> to the petition, and
is to the test of the Plaintiffs knowledge ^Unpublished’1 .

«ia Opaaicn of tine United States restrict Cburt appears at Ajpaodix "A” to the Pscitica, and is
to tine best of the Plaintiffs knowledge "Unpublished".

JURISSECra®!

Ebr Chsas from Federal Courts:
Tie Date on which the Untied States Court of Appeals Decided cry case was on December 7th 2020,
TO The best of the Plsintiff/Petitionars knowings there was no re-hering granted. Heaver
Slaintiff did file a 'Response'* to the Appellate Courts carder, vMch they altered his filings, calling it
a nation Ebr Reconsideration”, vhich such Appellate Courts Decision, appears at appendix ”C!!. This Was
decided on December 18th 2C20 by the Appellate court.
SubsequsntaUy The Slaintiff filed a “r-bticsi Ete darificaticsi,,t inquiring about that altered
title of Plaintiffs Motion, and inquired into why the Appellate Court Refused to respond or indicate as to
why they and the District Court Ehlsfisd their Rulings. Spsfficslly inquiring why the .Appellate court
claimed Plaintiff didnt present a Meritiorous claim, i.e. dismissing his ISP status, to show the Courts
srrored when granting Defendants summary judgment, when Plaintiff provided evldnacs, proof, by
preponderance of avidoaca, of cmtroliing/precidsntal case law/legal standards that conflicts with Courts
orders, Rulings, Decisions having relied on Defendants Professional Judgements, as wall as faslfying the
record by misquoting plaintiffs Slings, i.e. his summary judmgent resposnss to Defendants, construing,
and favoring thsn, as the moving party in summary judgement, which is -against even their cited standards,
in suastary judgment, to rather favor the non-moving party, which is the Plaintiff. Appellate Court simply
Denied this Jfcticn for Clarification, without a response/reasoning, on June 7th 2021. Such decision
appears in appendix "D".

The Jurisdiction of this Oort is invoked under 28 U.S.C, §§ 1254, and 1257.

to

ai ^fcies do mr appear in
■tte caption of this case on. tha Govsr
^ case, invovles «
P®3®. &2ch.t.icn=i parti■ss to
Rushvilie
Clinical
Ttea,
othendse
I
XSgXKl as
Jills Is dua to the Ptet that aidi
"lioerry Healthcare",
parsons trsatment issuings,
treatsasit program methods continue to,
ma have before this Plaintiffs intial
litigation date, (aathorisei under
ooctrinas' “ fee cws/lsgsl se*,^
- the 'continous violations
^
herein
this
writ)
violate,
and fen
tas standards of sax
to comply witii
offender treatment methods,
Sl5°
teucass
-ucing
this
litigation,
have been imrovled in. the inital as
scsns other parties,
Privations of the oonstutimal.
is5al, statutory rights, in vioaltion
sgiasnt the Plaintiff, that iissnt initally
of the litigation, thus Plaintiff
aware of such parties, hscuase such
oi<Sit initally kaow/was
parties, had yet to ha invovied.
soch additional parties asce required
to he enjoined, under tha
^Goyining, and ccatinous violations doctrines,
<3aa to oontincus, ongoing
<3aprxvations in sams/sinmalr nature, by additional
parties, after the litigations initsl
33 ***» to inital filing date,
filing, as wall

(2.)

(wsKmam, asp smmxm mcmsiats involved
1.} United States Ganstution, amendment 1, prohibition from harassment and retaliation for/from
filing grievances. 'Section 1, Freedom of religion, speech, press, assembly' "Congress shall sake no law
respecting an establishment of religion, or prohibiting tbs free excersise thereof; or abridging the
freedom of speech, or of the press, or the right of the people psacably to assemble and to petition the
Government for a redress of Grievances".

2.) United States Gonstution, Jsnsidment 5, section 1, restrictions on prosecutions1, "Kb person
shall be held to awnser for a capatol, or otherwise infamous crime, unless on a presentment or indicmsat
of a Grand Jury, except in cases arising in the land or navel forces, or in the militia when in actual
service in time of war or public danger, nor shall any parson be subject for the same offense to be twice
put in jsqpordary of life, lisib, nor shall be compelled in any criminal case to be a witness agxanst
himself, not be deprived of life, liberty, or property without due process of lav;, nee- shall private
property be taken for public use, without just compensation".
3.) United states Constution, amendment 14, section 1, 'due process and equal protections', "all
persons boren or naturalized in the United States, and subject to the jurisdiction thereof, are citizens
of the united states and of the State wherein they reside. So state shall make or enforce any law vMch
diaii abridge the priviages or immunities of citizens of the United States, nor shall any State deprive
any parson of live, littery or property without due process of law, nor deny to any person within its
jurisdiction the equal protection of the laws". Section 5 'enforcmsnt* "congress shall have power to
enforce, by approrpaite legislation the provisions of this article".

4.) Constution from the State of Illinois, Section 12, right to remedy and justice, "every
Person sna.1,1

a caCTSin irsmsCy" An tile Xswa JTosr oXl injusias and wrongs*

he jsrecdueves -fco Hi_s

person, privacy, property, or reputation, he shall obtain justice by law, freely, exxnplaetly and
promptly".

5.) Oonstution from the State of Illinois, Section 23, fundamental principals, "A firequent
recurrence to the fundamental principals of civil Government necessary to preserve the blessings of
liberty, these blessings cannot endure unless the people recognize their corrsportding indivudal
cfoligations and responsibilities".

6.) Cbnstution from the State of Illinois, section 24, rights retained, "3Sie enumeration of this
Gonstution of certian limits shall not be construed to deny or disparage others retained by the indiscual
citizens of the state*'.

7.) Title 42, U.S.C.A., Section 19S3, "Every person who,
under color of sny statute, ordinance,
zsguatlicn, custom, or usage of any state or
Samtory or the District of Cblur±aa,
subjects, or causes to
ce subjected ’ mY citizen of the United states,
or other person within the
n thereof to the
deprivation of any rights, privlages, or imaunites,
secured by the Cbnstutian, and laws, snail be lieabla
to the {arty injured in an action at law, suit in equitv, or
- Qther P=®ar proceeding for redress, except
that in any action brought against a judical officer for
an act or omission taken in such officer's
judical capacity, injuncitiva releaf shall not .be granted unless
a declaratory decree was violated or
declaratory releif
was unavaible. Fbr the purpouses of this
action, any act of congress appipicabie
sxclusivally to the District of Columbia anal! be considered
to be a statute of the District of ColuoMa".
3.) Title 28, D.S.C., section 1257, state courts;
certiorari., (a) "Final Judgemnts or decrees
tendered by the highest court of
» State in vhioh a Isdsim couM be had, „y
by tta s*
ems
Cburt by writ of Cfertiorari
the validity Of a may or Stetete of tee Ohitea states is am* in
question. or where the

validity of a statute of any state is dram in question
on the ground of its being
sspugant to the Cbnstutian, treaties, or laws
of the United states, or where any title, right, peivlage,
car immunity is specially set
up or claimed under the Oonstution
or the treaties or Statutes of, or any
a®nission held or authority excersised under the United States".
9.) Title 28, U.S.C., Section 1331, federal Question,
"the district courts shall have orignal
jurisdiction of all civil actions
arising under the Cbnstutiisi, laws, or
treaties of the United States".
10.) Title 28, U.S.C., Section 1343,
civil rights and elective franchise*,
"(a) The District
courts shall have orignal jurisdiction of any civil
action authorized by law to be ccaissncea by any
parson: H) Tb recover damages fear injury to his parson,
car property, or because of the deprivation of any
tight or privlage of a citizen of the United States,
.
ky any act done in further,ance of ary conspiracy
in
(2) k, rscover damagss ferai sny
person who fails to prevent or aid
m P^vanting wrongs mefcioned in section 1985
of title 42, which he had .kncvlecge were about to occur and
P3*er to provent; (3) to redress the deprivation under
color of any state law, statute, ordinance,
regualtion, custom or usage of any right, privlanga
or Mmunity secured by the Ctonstuticn
of the untied
States or by ary act of congress providing for equal rights of citizens
or of all parsons within the
jurisdiction of the untied States; (4)
Tb recover danages oar to secure equitable or other relief under any
act of congress providing for the
protection of civil rights, including the right
to vote".

11.) atte 28, 0.S.C., SBta ,357. tej** ofer Mteu urn, ..aa dSsalat
court shall have
recover damages for any injury to his
1:erSOT> or prejterty, on account of any act dona by hijn, undar any act of
congress, for the protection or
collection of any of the revenues
or to enforce the right °f citizens of the United States
State".
to vote in any
jvftediotim Of ay civu otta, C**3 by ay jasan to

Li)

12.) Title 28, U.S.C•I Section 1367, Supplemental Jurisdiction, "(a) Except as provided in
subsection (b) and (c) or as exoressivaliy provided otherwise by Federal Statute, in any civil action of
vm.cn the district courts have orignal jurisdiction, the district courts shall have supplemental
jurisdiction over all other oleins that are so related to claims in the action, within such orignal
jurisdiction that they form part of the same case car controversy under article III of the Doited states
Obnstution. such supplemental jurisdiction, shall include cl aims that invovle the joiner or intervention of
additional parties'*.

13.) ELtle 18 U.S.C.A
QDnspiracy agiaant rights

♦ *

Grimes and criminal procedure, part 1 crimes, chapter 13, section 241

"If two or more persons conspire to injure, oppress, threaten, or intimidate

any person in any state, territory, cssraonwalth, posessicm, or district, in the. free excersise or
aijqymsnt of any right or privlage secured to him by the Oonstution or laws of the United States, or
because of his having so sxcersissd the same or if two or mors persons go in disguise on the highway, or
<an -Che prstnsis or another, with, the intent to hLnfiar his free excersise or enjoyment or any right pr
privlage so secured, they sail be fined under this title or imprisoned not more than ten years or both,
aid if death results from the acts committed in violation of this section, or if such acts include
kidnapping, or an attempt to kidnap, agravated ssexual abuse, or an attempt to co-radt aggravated sexual
souse, or an attempt to kill they shall be fined under this title or iaposioned for any terms of years,
or for life, or both, or say be sentancad to death”.

14.) 720 I.L.C.S. 5/33-3 'offdeal miscondcut' "(a) A public officer (vhich is applicable to any
persons in this Rushville Facility, under 720 I.L.C.S. 5/12-3.05 (d) (4) (i) (4) "a peace officer,
OMisunity policing volunteer, fireman, private security officer, correctional instution employee, or DBS
anpleyee supervising or controlling Sexually dangerous persons, or sexually violent persons") or employee
osr

^ovetmaerife agant coaaaAfee mx£sefisrt3eru.*fe, when, in hduS r.ffinal capacdLty, SS 3 Special CjOVSZTirtSfTiL

agent ha or she oaimats any of the following acts {1) intentionally or recklessly fails to preform any
mandatory duty as required by Jaw to preform, or (2) knowingly preforms an act vhich he knows is forbidden
ty law to preform, or (3) with intent to obtain a personal avantage for himself or another, he preforms an
sot in excess of his lawful authority or (4) solicits or knowingly accepts fear the preformanca of any act,
a fee or reward which he knows is not authorized by law (b) an employee of a las-/ enforcement agency
mmnitts ndscondcut when he or she knowingly communicates, directly or indirectly information acquired in
the course of employment with intent to obstruct, impeade, or prevent the investigation, apprehension, or
crosecurition of any criminal offense or person, nothing in this subsection (b) shall ba construed to
impase Usability for camnunicafcing to a confidential resource who is participating or aiding law
siforcemt in a ongoing investigation (c) a public officer or employee car special govememt agent
convicted of violating any provision of this section forfits his or her office or employment or
as a special govemeont agent, in addition couznitts a class 3 felony".

(5)

15.) 720 X.L.C.S. 5/12-21, criminal abuse or neglect of an elderly person, or person with a
disability, section: criminal abuse or neglect of an elderly parson or parson with a disability. Section:
12-21 "a person cortaitts the offense of criminal abase car neglect of an elderly person or parson with a
disability, when he or she is a caregiver and he or she knowingly: (1) preforms acts that cause the
elderly parson or person with a disability's life to be endangered, health to be injured, or preexisting
physical or mental condition to deteroriate, or (2) fails to preform acts that he or she knows, or
reasonably should know, are necessary to maintain cor preserve the life csr health of the elderly person or
person with a disability, and such failure causes the enderly person or person with a disability's life to
be endangered, health to be injured, or pre-existing physical or mental condition to deteroriate, car (4)
physically abuses, harasses, intimidates, or interfeares with the personal liberty of the elderly roarson
<x person with a disability or excesses the elderly parson or person with a disability to ^
deprivation".
16.) "Speical

fin

Eaty

doctrine - "the rule that a Governmental entity (such as a State or
municipality) can be held lieable for an indivudal Plaintiffs injury, when the entity owed a duyfcy to the
Haintiff, but not to the general public, this is an exception to the public duty doctrine, the special
cfaty doctrine applies only *hen the plaintiff has reasonably relied on the Governmental entity's
assumption of the duty”.

17.) "Special Relationship EOctrine - "the therory that if a state has assumed control over an
indivudal safficent to trigger an
<fc£ty to protect that indivudal (as in involuntary
hooipiiitizatian. or custody) then the state may bs lieable for the harm inflicted on the indivudal by a
third party, this is an exception to the general principle prohibiting msmoars of the
public from suing
state employees for failing to protect them from third parties".
18.) "Govememnt laws Doctrine - "the doctrine that the Government must operate according to
established consistent legal principals and not according to the interests of those who happen to be in
powsr at any given time, esp, the doctrine that judical decisions most be based on the law, regardless of
the character of the litigants or the personal predilections of the judge".
19.) "Stare Decisis - "55ie doctrine of preoident under which a court must follow esriW judical
decisions when the same point arises again in litigation, the rule adherence to judical preddents finds
its expression in the doctrine of stare decisis, this doctrine is siinpply that when a point or principle
of law has once been offically decided or settled by the ruling of a competant court in a case in which it
is directly and necessary invovled, it voll no longer be considered as open to examination or a new ruling
by the same tribunal car by these which bound to follow its adjudications, unless it be for urgent
reasonings, and in exceptional cases".

item of retention or
2),) Body of Principals for the Protection of KL1 Persons Under my
comtrary to the rights and duties
imprisianmant, Principle 7.2 "State= pfrM-n.d prohibit, by law, any act
subject to atprroapita sanctions, and condait, iaiparital
contained in these principals, sake any act
t or punishment sould ba
Ihe Perm cruel and inhumane or degrading treatment
investigations, upon complaints.
possible protection agianst abuses or imarisxcned persons in
interpreted so as to extend the widest
of his natural senses, such as sig^fc,
conditions which deprive him, tamproally or parmantaliy of the ushearing, of his awarness of place and the passing of.time*’.
(d) (pt. 6) (Exception) "local rule 7.1
21.) local Rule of Federal Rules Of Civil Procedure, 7.1
, otherwise will be kerned
(d) [requiring plaintiff to respond to each material fact, in sunmazy judmgent
, social security appeals, or any other case
an omission of file fact] does rest apply to pro-se litigants
upon the showing of good cause".
224 f 3d 607 612 (7th rix 2000) (headnote #15) "an Act taken in
retaisition for excsrsise of a canstetionsliy protected right, violates tbs cmstution".
££sMs*:aax«c»

22-) SSS&Jk-SSS:

23.) Griffin V. County
.

—.—-.y, yj. <rrrs±s

t yeslc simply because of disagreement with them”.
#12) "oonstuticnal principals cannot
24.) waltznian V. Sdnlissinger. 414JLS. J304J*JLi&J.

(1973) (Headnote #11) "United States

require! that the law ba applied in
Qmstuticn ensures that the law vdll untimatLy prevail, but it also
accordance with lawful procedure^".
25.) Kcontz V. St. Johns
(headnote #2) "The
preventing tha Govsmr,=nt reran

-2s£uS?.JE-^SL££iJ££L

TSnditicns Doctrine vindicates the Constutions «rated rights, by
^ople irtto giving M -P»* tHeadnOte #3) ••TSEBWfflfiSS Of MOSS

farfifting a Cbnstutional right, the
the Government ultimatllv suceads in pressuring someone into
enumerated rights by cosrsively
UnooRstntional conditions Doctrine forbids burdening the Oonstutim
«the Government may not benifit to a parson because bs tsaxesisee
witholding such benifits"; (headnote #1)
a Gonstutionsl Right".
1816 v?L 1721 1 ad 97 (headnote #10) "Ihe Govemmcint of
26.) Iterti-i V. Hunters Jggsgj.J±M%JSj
not granted to it by the asnstutian".
-cha Unite:! states can maim no powers which are
2d 170 (1983) (also cited in
27.) swsnrec _V.JSt.

the doctrine that the Government Most, operate
Slacks law Dictionary) "She Govasnemnt laws Doctrine —
s and not according to the interists of those wno
according to established consistent legal principal

b)

happen to be in power at, any given time, asp, the doctrine that judical decisions must foea based on the
law, regardless of the character of the litigants, or the pssoral prediletions of the judge".

B2BSLMJ.3UH J*a **» dr 1953)) ■and that th. procedural ccnBmatt dthte

process clause
requires -die government to act in a manner which is fair and just, if it does anything that directly
affects a parson os his/her property, a procedural due process claim has two distinct
elements (1) a
deprivation of a cmstutionslly protected liberty interist, and (2)
a denial of adswuats procedural
protections".

23'} £2S2SaY-..Px?*c. 28 f 3d 592 (7th cir 1994) (hsadhote #2) "officals voluntary cessation
fsxxn engaging in conduct as unconstutional, doa3 not raider a case moot".

'•every citizen is bound to

ctsy the Osistuticn, and every Court is bound to enforce its provisions"„

31 *5 ag^-^ajaS^Ja5J§i-g!LS....SS2 131 s Ct 2653 (2011) (headnote #22} "the First
Amendment directs courts to be especially skeptical of reguatlions that seek to keep people in the daft
for what the Government arecieves to be their own good'*.
a’ -SSflUk. “atJSLS&JSJZj.HiJ*». lira) "the court toe tr«n not cted
the general proposition that if a wrong can be done, it can be undone".
33.) San gBS.ggggnB.Bx..Quality SMaticn
V. Barrera 2018 ML 45SS700 (hesdrsote #31)
"voluntary cessation of purportedly unlawful oominr* do3s not oricfearly render a case amt”.
M'}

1S9 69 s ct 361 (1963) (hesdnote #3) "a case nay become

moot if subsequent events make it afosolutly dear that the
allsdgly wrongful behavior would not be
reasonably expected to recur".
35”}

V« laidlaw aivtl. Servs. Inc 52S U.S. 167 189 120 s ct 693 145 l

52-2LS2-S2221

lt ateoiutI-y clear that th3 allsdgly wteng feshaviar could not reasonable bs
expected to recur"; "Thera is no reasonable esqaectatica that ths wrong wall be repeated".
360

(headnote #18) -express policy therory of

nurdcipal lieability under section 1983 applies vzith. a plaintiff can point to an explicit policy or
esassion in policy that vioaites the CDnstutimal eight".

(8)

ct 872 (2010) (headnote
37.)
Citizens United V. Federal.
° / .yzmr^TZ-TT^r-r ■ ----- the most convincing of reasonings
#16) "Suprsna court, precident is to be respected by the court, unless
cause that is sure error"; (heacnote #17) "beyond
casonstrate that adherance to it pats the court an a
to the principle of stare decisis includes
workability the relevant factors in deciding whether to adhere
interists at stake arsi t&sthsr the decision was well
the antiquity of the precident, the reliance
reasoned".
(7th dr 2018) "in dtsrffiining whether susaary judragen*.
38.) Oden V. atterholt 606 f 3d ,355356
^
favorable to the non moving
is aoprrorpaits, the deciding court must construe all facts
party and draw all reasonable inferences in. that parties favor".
2014) [5-8] "Daubert laied out four factors t>y
39.) -aw*
Beam. V.ra «tesac.»»
(1) vhethsr the aspects conclusions are
vhich cours can. evualte the raaliablity of expert testimony
^review (3) whether there is an error rate
falsfied (2) whether the eogarts method has been subject *» p***
in the relevant scientific cocnnnity
with the technique and (4) whether the rnsthod is generally accaptec. in
(Citing Daubart V.

Marrall Dow nharnacuticals Inc 509 y.S.„579 (J933)^

40.) Garter V. carter 298- U.S. . 56

s ct 855 (1936) (hsa&fflte #7) "powers which generally

?d in COnstuticm and such implisd powsrc are
Ghvemsmt nay axoarsisa are only those sceffically anramafcsc
_
_
enumerated powers and whether end sought to re artauisa by
necessary anil proper to carry into effect
r and Sot Legislative dscrassicn which
of congress is lsginsts is wholly a -ratter of ccnstutionel Power
to carry deligatsd peswers into
begins with choica of means and sna= with adaption of methods and details
effect".
an apprropait-s proxy but
41.) Keister V. Schulte 4S7 U.S. AK 03 s ct 2495 (1988) "there may be

to justify its regualtions".
the State has to provide sons evicnaca bsyond cmclusionary assertions

23 TB 362 256 1U

297 m*-fe_2Ll!aLg£a

“ f“C~

42.) In T<s M.H. 196 HI
orotectim against govemmant
clause Guarantees mors than fairness, it also provides hightned i
infesrists (See also: rashingtCTi^V._glu^2S5.
anterfearanca with certain fundansntal rights an3 liberty
521 U.S. 702 719-20 117 s ct 2258 22^.11917)j«
^ 960 (1977) (hesdnofa #S) "decisions of an
rwX.«w»*aa»es»*a&rt=u-.

appellate court are binding on all circuit courts, regardless of locale".
T^vitt 2014 ai m
tf"5*0** *13’ "al“9h thB aK*UflM
44.) People V.
, other than United States Supreme Court, suca
court is not sound to follow decisions fcy the federal courts

C<U

decisions may be considered persuasive authority”.

(hsadnote #6) "eventhough
Governmental Furpouse nay bs legislate and substantial, the purpoase cannot be presued by means that
broadly stiffle fundamental personal liberties when the end can. bs more narrowly drawn”.
46-)
Illinois 237 XU 23 391 930 H.B.
'-court must
interpret and apply statutes in the manner in which they
are written and cannot re-wits them to sake than
assistant with their am idea of orderliness and public policy”.
48') ££^g&&JBgagPSgSgL3iJL..M9.18.(7& cir 1992) -sugary juctajent is not a vechile
for resolving factual disputes".

£§-g-l?$b..giir 1S38) "toat the professional knew of
the saarous medical need, and (2) disregarded that nsed» knowledge can. he proven if the trier of fact can
conclude the plaintiffs medical need was obvious”; "that Plaintiff
-*■ aast P»ve that the treatment; decisicn,
by the treatment professionals was a substantial departure from the accepted professional
standard".
50,)
et al P.S.C.D
H "the Supreme Court Understands that the Bburteenth Amendment to require that civil Detainees recieve
treatment for the disorders that led to their cmfinmsre and 505 released vhsn they've improved enough to

”

te

<jgJBJB32L»°g-j°7/5S. M-M) "that te aKisi« « hi

33

a response to doubts increasingly raised about the

ronstsitianal adequacy of ihs treatment provided to
civilly detained sex offenders; "the Constutionality of Civil CaraittaSEit and the Requirment of adequate
treatment see: (49- Boston College lav Raview 1383 (2008); Sarsjsns V. Jessoa 109 f sucd 3d 1139 U72 (a.
Minn 2015))”.

51,) ^535»-gL M&z. CAppeal iSb; 15-3485) (Amicus
SSMJSiLHi.
the Supreme Courts Decision, i

"Bollowing

prevail cn an as-applied due pxcsss claim, that the States defendants'
actions violated the plaintiffs'
suhstantxative cue prccass rights,
the plaintiff "must demoantrate both that the [state defendants ]
conduct was oonscienca-shocking, and that the [state defendants]
violated one or more fundamental rights
■amt are 'deeply rooted in this Rations' history and tradition
and implicit in the concept of ordered
liberty, such that the neither liberty
naer justice would exist if they ware sacrificed” (page 19) "as
indicated above however, the court a
shsodd determine both whether the state defendants actions were

(10)

liberty iaterist. lb aetemins if the
oonscience-shoddng end if those actions violated a fundamental
^uld considerr whether the state defendants actions
actions were Conscience-Shocking the district court =
f 3d 752 755 (8th car 2013) (cpioting MggJk
were "egregious or outragious" See Montin V. catsoa. 713
nave explained that the alleged
• * * so disproportionate to the need
substantive due process violations mast involve conduct “so severe
unwise excess of zeal
present, and ... so inspired by asides or ffyH.cm rather than a merely careless or
literally shocking to the conscience"
that it amounted to a hruetsl and inhumane abuse of offical power
Moran 926 f 3d at 647 (quoting jhjge Scott Orty Jfester Docket 672 f suqp
incorrect standard in cosiriering the class plaintiffs as
itocordinagly the district court applied an

applied substantive cue process claims".
1992) (headnote #3) "challanges to
of
bf totot* s® confer toe to. cxtfSMfl to*fto«ly to sta» TGatm*. VAvc
conditions
to « toto-.,
™t Wffltoly «0»«xJ
to. cte m>°« «>»*> rectos
tot aifl not soi MW, ttotoi *»» of oivnitod a«o«y.
°f*”'Kra
treatment center was indsfinate ana
santancas would expire in aproxemetly nine years, his conrinmsnt in
his sentence expired".
neadsly v.ursning his mental conditions that hs might well bs confined long eft-sr
(hsadnote #34) "a court invokes ecraitys pwsr to remedy a
isnt.ution, has the duty and
Constulional violation by an injunction mandating systemic changes to an
responsibility to assess the efficacy and cmquansas of its order".
f 3d 267 {7th dr 19S6) {headnobs #3) '•prisioner may maintain suit
5d.)1 Babcock V. Vhite 10b *«=
~-v«
sllecging
that
officals took action agiesnt nrisioner ia retaliation for
against prision officals
redress of grievances, eventhough actions
pensioners excarsiss of first amsneteent rights to ratitxon
complained of by prisiosier tdid not Independently violate the consiution".
ir 2013) (headnota #4) "even if district court abused
55.)
under the informa Pauperis (IFF) statute, an
its aiscr-assion in denying motion for appoinment of counsel
pre u
j dicated the litigant which requires a
appellate court can reverse •when the absence of counsel
of
would have made a difference in the outcome of the
reasonable likelyhood that the possanca
litigation’1.

_
r;
-j inpi ac m n Towa (Mar 20 2015) (Headnots #12) "conso/aecs
56.) willis V. Palmer 175 f suiep .aajiOdi.JJLw.ykirt
‘ 3 rather than professional judgment standard acpiisa in detuning whether trealmen,
shocking standarc —
(heacnote #13) "genuine
rscisvea by civilly cxramitrted saxc offenders violated subatantiative due process ;

(tl )

issue of aateruai feet regards whether quality of sex offender treatment rscieved by long term sex
offender patients ccsiEnittad to civil conmttsisnt at a state hosipital under state statute shocked ths
conscience precluded sussary jdugnsnt in favor of head of Jcsis dapsrtstsnt of Human servicss, for-asr
airdnistratior of treatment program end various indivucal treatment providers in patients section. 1933
acticsi alledging violation of Eburfceanth Snsnshient".

unreaEpnableness standard applies,
qjpossd to courts relying of professional jdugmsnt of tbs treatment professionals).
5S-) Saray V. Seeling 1C8 f 2d 1148 (9th dr 2004) (headnote) "due process clause of United
States Cbnstufcion Required State nff-iraia to provide civilly consdtted sexually violent persons with
acess
to mental hslath treatment that gave them relistic oppamuity to bs cured or to inprove condition which
they are confined".

"those parsons convicted of a
criminal sat offense and given intermscEate life sentacnes, on basis cf mental illness
are entitled to
Cbnatuticnally adequate treatment for those sex offenders oottuiitted in civil processings"; "Adscuats
and
effective treatment is Ctaistutionally required honai^ absent, traateant appellants could bs held
indsfinatly as a result of thsir mental illness".

6°‘)

V., Romso 457 U.S. 307 321 s ct 2542
txrtijunastrmiwas a
Mthis teview is differential, professionals decision is pcasussptivaly valid and
Usability nay ba inpxsad, only wh&n decision by the professional is such a substantial departure from
accepted professional judgment or practice or standards to determine that the parson responsible actually
did not hess the decision an such a judregent".

51 •) Jackman V. county of KCLsan 953

(it Will prdbely be
necessary to present a medical expert wLtnsss or to cross axaarLne medical witnesses called by the
defendants, or both, the presence of radical or other issues requiring
erasrt testimCEiy supports the
appointment of counsel"); ("it should have been apparent from ths onset that Jacks®! needed the
expert
testimony or a physical! or halath professional to prove two easstial elements of his claim, the
professional practice regarding the use of restraints ard that the restraints used at the ifcuean jail
constutitsd a substantial departure from the accepted professional practice....
in short ths lack of legal
^presentation placed Jackson at a saarcus disavantage commted with an aavarsary vho tack, avantage
over
ths situation. .. m therefore had that ths District Ocurt abused its Mscressim in
failing to grant
Jacksons request for Ctounsel under section 1915 (d)‘r.

(«)

ffiL) «an V. W»d 512 f 3d 3S6 895 (7th.c*r»0?jL4al» £S££L22£^LX. Rcsrso 457 U.S. 307
323 (19S2) "such substantial departure from accepts professional juuagent, practice, or standard, as to
csmosntrats that the parson response actually did not case the dacisicn on such a jtshgani".

zjkts&XJB ISOM*

63.) Jbhnscn V. O.S. 565 77 s cfc 550 (1957) (hsadnote 4)1) "certification by judge Presiding at
trial that appeal of cm seeling to appeal 3ft jj^nsa Fsuparic is not taken in Good Faith carries great
weight, hut is not final or oondusive, and doss not preclude convicted defendant from lowing that
,*-iacae*«*»2ttS£A.-f«-

ratification was not unvfisrantsd and that appeal should be allowed, and upon proper shoeing court of
,-y^aTg Bast displace district courts certification (28 U.S.C. sacticnn. 1915); (Headnote #2) "VJiere
defendant seeking to appeal In Forma Esupsris dhallangas cetificaticn by trial judge that appeal free.
conviction as not taloan in good faith, court of appeals must -afford defendant the aid of counsel, unless
he inissits an acting as his own counsel and either defendant or his assigned counsel must ba enabled to
show that grounds seeking ral are not frivilous, and do not justify filing i*at appeal is nto sopghfc
izi Qood faith".

64.) ^V.i_StoS^Qf^ay7arfrJ!2^ (headnote #3) "district court airraid not apply
an. imaprooriatly high standard when determining

vhsthsr a prisioners appeal was taken in gocc faith, for

purpousas of prisiosnrs application to proceeds 33a Forma pauperis".
3d 503 524 "officals Iciowledgs of risk, can be proven, through
circumstanal evicinace dsmenstrating that risk was eo

obvious that the offical :-.rost nave knewn about it".
"correctional supsrvisiors may be lieable for
;^ac.t«aer.

felling to

correct mccnstutional conditions car practices within their area of authority if they knew, or

be held t-s«ahir» if they are informed of due process
should have known about then, officals nay also
suanrvisiCBry accountability ano responsibility can bs
violations in other ways and fail to act on thsa.

to tor. (HLlwing actors (1) th» .iaftmart s«rttoip>t»-= dtoctly in vtoaltim or
or (21 tto
defendant, after oatog inSMrf via report, arptol, trlmmm, l»«r, ««. ***> » «-* ®* «“» «
(3) the defendant created a policy or custom under vMch uneonstufcional practices accused or were allowed
custom, (4) the defendant was grossly negliganf m supervision oj.
to continue to occur via that policy or
the acts (5) the defendant
his or hsr aioordisntes, *sk> credited the acts, supported, or covered up,
demonstrated deliebrate indifferancs to the rights of plaintiffs by failing to act on information
indicating that uncorstuticnal acts v.'ers (securing, or gpotentiaiiy occuring".

67, j Bifebrwct V. mtocto act, of
*

i-m

ra-~****r*,'**1*ir **taa>s"‘^**agi^^a‘

Waa-Jg ' M «MU<BLS22ii£L2£>. <“

satisfies ths tsrsoaal responsibility reqniraant of
,l section 1963 if the conduct causssing the
with his knowledge
concent, treat is he must know
cmstutional deprivation. occurs at his direction or

OffiC3l

about the conduct, facilitate it, approve it, condone it, or turn a blind sye to it".

SS.) Haintiffs entitlement to invoke joiners, and contanous vioaltions of defendants, and
mjoin ot defendants, because of haivng participated, in continuing the inital violations: U.S. lie V.
»g?
Kim 385 f supp 3d 600 g.S. HI (2019) (headnote #6)
young
applies, a court need only to conduct a striqhtfibwazd inquiry into whether the oon^SLaint -inwyc
ongoing violation of federal law, -a>d seel® releif properly characterized as ssrosepective".

csjntinus to vioslte rights tmtSar section 1983); (CJwSSnwd violations adsfc if the defendants at any time
ceased their wrongful condcut, further injury [not avoiding inital injury, inital injury still ejdsts]
v.ouoL ahve been avoided); ("a vloaltion is called continuing signifying that a plaintiff can reach back to
its bsginings, even if that begining lies outside the statutory limtfetions parried when it would be
urrcsasorts&le to ^require or even, jpreait: him iso sue .-seperatXy over every incident of defendants wrongful

actions'*}.
70*>

344 f 3d 663 (7th dr 2016) (headnote #9) “federal rule under ax-parfe

young altos suits for injunctive relief or declatory relief to require state officials to comply with
federal law”.

revocation of defendants supervised release if he failed to cospleate sex offender treatment program which
reqiared him to swnser incriminating questions in sexual history polygraph, constituted urconstutionsl
compulsion under the fifth amendment defendant had affirmativally asserted his privlage against self
incriodnatim, feet that court would be revoking defendants supervised release for failure to ecmplsate
treatnsnt, not refusal to incriminate himself was a distinction without difference, bsca:ise ha was unable
t° oompleate treatment as a direct result of the ^vocation of his rights and it was irrsvlsnt that the
court never actually revoked his release as defendant ms oompelled in the mosnmt, the government
thraatnscl him with a substantial penality (23 U.S.C.A. Const Mmi 5) (U.S. V. Calverfc-Cata 2017 ML
478597; Barnett V. Bigalcw 3S7 f 3d 1016 1027 Utah (2016))"
72.) Illinois Mnistrative Code, Title 20, Section 1905.80 (b) (1) -risk:: sexual abusers
presenting a higher risk of reoffending redeve a greater intensity and cosage of treatment services,
while tower risk sexual abusers recieve less. Providing an innaprorpaite intensity of services nay
nacativally affect treatesnt effectiveness and recidivism risk*1.

73.) ILLinois .Mcanstrative Ode, Title 20, Section 1905.100 (a) (7) "Treatment providers assist

(H)

an3 enhancing Facial iattadsts, skills, ana oebaviors, that the clients
oriented toward a nenoffending
thsaselvas seek to enhance or attain (i.e. approach goals that are
thoughts, interim bahavLors and
lifestyle) , £s exposed to strictly focusing on managing innaprorpaite

clients with identifying

risky- situations” „
74.)

»*. atle 20. Ssai* 1905.100 (b) (3) (C) »3***«t pr«ddB=S a«
attitudes, beleifs, and values that are mconvanticnal, hut unrelated

aware that alough dibits nay hold
c odsanal behaviors, these attitudes, balsifs, and values are not
to their risk for sexually abusive or
deemed seprorpaits primary treatment targets”«
75.) nunou

CD*. HU. 20. SeDtim 1905.100 (=) (?) t»*™* P=«Kto

a 'direst result of legal or
recognise that, alough claents present for sexual abuser epefic treatment as
•generally insufficent for producing long-term change among
other mandates, eternal rrotivatiors alone are
clients".
75.) in Prints fedmird-strative Cods, Title 20

Section 1905,100 (c) (6) "-Treatment providers are

change (and varied types and
aware that clients present -with differing levels of internal motivation to
interests, arousal and attitudes,
levels of denial and ndtasdsation related to ssxueOly abusive Dsnavxor,
and beleifs), but that such characteristics do not preclude acess to treatment",
77.) Illinois federative Cade, Title 20, section 1905.100 (c) (7) "treatment providers

aoa*** tot *mi*L m* rtJtfatort® «*v if» — ***** •*’9“* te

** ** *Dam

or M *ki ****** « -®* «4dw- «■»

■“> •*vaty

y*1 *— tely

clsxnt groups".
75.)

«*. Titl. 20, Wttal 1905.100 (o> (8) “tcwMr* proridDr, auopoDD
client history and functioning, but acknowledge that it is
the client in being honest in discussing the
clients legal guilt or innocence,
not the role of treatment providers -to attempt to determine or verify a
undented sexually abusive behaviors".
or to ocsrcee confessions of unreparted or
79.) mmol,

OD*, QtU 20, actio. 193.100 (c) (9) “Wtsnt pDDVito a*
client prssdstantly denies, results in
aware that attempting to provide treatment for problems that a
yesrssErandations about the iacivudals treatment progress
hawing limitations in making realishls clinical
and re-offense risk, and that this has ethical. imDlicaticns".
80.) Illinois Mristrstiva Cede, Title 20,
taht a client who has sussssfuHy cciEplsatsd treatssnl

Section 1905.110 (d) "treatment providers recognize
has generally: (3) Demonstrated changes in managing

(IS)

tftSfas choughs, attitude^, eaptions, tehaviors, and sexual Intsrists that are sufficantally sustained

to

caraate a reasonable assumption that tha client reduced tha risk, to reoffend".

SEftEJW OF T9E C*SE
2his case vas filed due to tha Defendants, end many other 'treatment team professionals' having
felled to issue adequate sex offender treatment to this Plainitff/tetiticner. while doing so, ccsnmtting
many other Omtetional and legal, and statutory violations. after this complaint ms filed, during its
litigation the District court as well as the Seventh Circuit Court of Repeals engangad in. many errors,
beyond harmless, but amounting to projudical, bias, judical miscondcut and error in tanafest mile making
their rulings, having favored the Defendants In spite of dear, Plain, and obvious conflicts as to
Cbnstutional, statutory, and cocrjijrsntations/filings that was already cn fens record, such courts ai<=p
dismissed, and failed to apply clear constiuional halations committed by defendants, ccntemporanicuslly
as to the lnital deprivation of 14th fisasncmsiit due croc-ess.

Plaintiff/Petitioner had (and still to this filing date) participated in the Rushville
Fhcilitys/ Defendants sex offender treatment program, since 20C9. Daring such years, Plaintiff/Petitioner
has been the victim of many, continued, and ongoing constutional, statutory, criminal, fslinious acts
oommited by Defendants and Rushvills facility Clinical Team professionals throught his years of trsamtsnt.
ihis includes, but is in absolutiy no my limtied to: having been subjected to -deliberate and intentional
delaying, and precluding of this Plaintiff from his acess, and progression in tha sex offender treatment
program, v-hicsi includes such dsliebrate, intentional, calculated, and salicious actions by Defendants
and
Rushvills Facility CLindal Treetoant Team Professionals of having predcmMatly issued, and expected to
the Plaintiff of nurmous conflicting goals, ajcoecfcatlans. ohis Dynamic has created to where it makes it
impossible for the Plaintiff to ever progress in. fcreamtent. For example, claiming the Plaintiff needs to

meet behavioral expectations in order to progress in tha next phases of treatment, ohsn when plaintiff
'meets those' sabatoging him, by imposing that those are no longer necessary, and cannot progress due to
not taking responsibility tor his behaviors/sexual offenses (which as this plaintiff will explain, is
oanpleatly false, and febricatsd, bscuase plaintiff has simply been accused of this, in spite of factual
tocaemtoiatim that by Ms written treatment work, took responsibility for namous undiscloused offenses,
aid behaviors etc), lhan men Plaintiff has been deemed and evulated as comcleating required taste, and
expectations, i.e. taking responsibility, then it gets flipped back around as to accuse the Plaintiff of
not meeting behavioral expectations, in spite of still mantaining these positive behaviors, (i.s.
cessation of sexually acting out, cassation in rule violations etc).
3Ms, in short, has been the ongoing dynamic of the Plaintiffs treatment since 2009, having
aproxemstiy 4 times over, oompleatsd all his Ssx offender treatment work, (since 2011) uo to par, of what
•docuemtnations reflect by dsfenants and other crofessicnals progress note®. Hcwevar in spite of that,
somehow plaintiff has still been continually required to essetially re-do all his work, claiming that in

fit)

the past, had not infact compleated all such work, nor took responsibility far his behaviors, sexual
offending bshaviors/offsnses ate, in spite of prior docuemtnation inddating otherwise, which was v,fcy and
was indicated of tbs plaintiff being premitted to progress onto other ssgigmsnts, etc, bectae of having
essstially oompleatea, -book responsibility up to satasfication of treatmant tea®, and group members.
At which point then turned focus back cstfco plaintiffs behaviors, years past, claiming he is not
making behavioral expectations. Bssstially by re-hashing up prior discussed and ’roved on* issues, to
essstially cmtinusally berade plaintiff with requimaits of re-discussing those behaviors, whan he had
already sffectiveally and to the expactations of trsaratent team, and group members, as docuerntnations
reflected, in years past, discussed, took responsibility for such. However having re-brought up those
issues, essstially mudding the waters with discussions of assess already discussed.
'Oils dynamic has repetivally cccured, in this fassion, simply beucasae of che plaintiff being
removed from sex offender treatment groups, and or removed fern all mental health croups togather, then
re-olaced back in after vests of absence, being ra-placed back in with oombLeatly diffemt sat of
treatment team professionals, and crouo msmsors, that ssswfclally hs® no pxior knowledge of prior
progressions of and responsibility takings of end by this plaintiff. Also dua to the continous ’change
over' of treatment -team therapists st this Rushville facility, which has essstially bssn done, becuase of
what Defendant Jumper calls the program, as isbled on his ’tranining manuals’ for interns, and postdoctoral fellowships as a ‘investigative, forensic traning program*. 'This continous change over, coupled
with such so called treatment team profeseioaals has ultinstly create such dynamics, because of newly
assigned trsatmnst professionals not having been krioweldgseable to, and or becuass of failing to
investigate and read all of plaintiffs prior treatment work, filings, progress notes etc. Making any
progress he trade, years prior, sssatially. null and void, and navmg to start fire® scratch. Inus maxing it
impossible, as repaired by 14th Auandment proceddurael das process, and cases life*
Dimas; Karsjens V. Jesson; Youngberg V. .Rosso; and ihs Sea^y, Violent
207; 225 XLCS 105/40; to rnfecfc prcsvics, and requir-a i-coea than, just sans treatment, 'which the defendants

and Cburts continsually fcraged about, that is all thats required having cited Amsion V. aiyger, however
V. Snyder simply requiring ’sons’
such cases and laws, set precicsricft over tnat standard in ALison
utAxsszuaauu
treatment, and as well as requiring treatment to be issued by the profxessinals in manners in which allcws
Plaintiff to progress to improve enough to where he can be released. Ibis standard is also set in ’the
regustiions, and lavs, of standard sax offender treatment reguatlions, in Title
m: Trfi«
On portion 1905.100 fc) *r(6);
Title 20 Section
1905.100 (c)*«*-■*«>(9).
,*T, ~ pe ^__ T- ---T-.tj fc
c*vr>
Jt«.ia=su= 1.W
vhile Treatment Srofissionals/defendanfs have infact, provided 'sane* treatment, however the
courts are in error beyond harmless, amounting to projudical, bias, judical nuLsccsidca^, and emsr in
roanafest, by not applying conflicting standards that rsrifer these -antiquated standards moot, by new
standards, requiring sex offender spefic treatment, to be given, in a adequate way, that affords one to be
released. Ihe courts failing to apply such pr&cidsntal standards, rather their- own interpr-satfen and
ctedlaions, relying on such antiquated legal standards, and professicoals judgtisnts, essatially violates

(n)

the precidental laws aru3 standards cited above, trot in sedition, controlling legal standards like
QCWSO®®^ LS6S DOCTRINE, 33SR.E DECISIS. SPECIAL RHATTnjfSTP. SP33CTST. nffTV TVTTOTORP.

Hie reasoning why such new essdLdenfcal standards have besn set, essetially is because courts and
treatnent prctfffisMbnsls, and evualiiors, simply do not conclude that »soaa treatment' i.e. mental health
treatment, is not sufficent for considerations of a offenders Cleese, that only sex offender spefic
treatment is the preasis of denoting a client to have -rads substantial, and sufficent progress to be
released. Bor sample, plaintiffs participation in what is called ancslory groups, i.e. anger nanagaent,
etc, is not. sufficent for courts and sex offender tseatmant professianals/avuMtiors to conclude one has
aade sufficent progress to be released. I.e. requiring progression in sex offender treatment scefic
programs, wench at this Rusnville Facility is only avaibla through ground called 'core* or
'disclosure/post disclosure groups', m other 'ancslory' grours/x.e. mental health treatment group
.participation affords clients, this plaintiff abilities to racieve assy fora of sex offender treatment.
Such other mental health groups are only idsntifed in assisting the client in that process, but is not
sufficent to call or label as laving redeved sex off aider spafic tresaent, nor to have reduced the
cliante/plaintiffs risk lo reoffend through fchsss mental haaith groups. atets why antiquated legal

standards the court, and defendants brag about, to only afford plaintiff/clients at aushville Facility
•sons' treatment, is essetailly inadewquate.
ELaintiff, when having filed his inital conplaint, in the district court, had sssetially ‘had
siough' of defendants, and treatment teams 'screwing him around' in this above concluded methods since
2009.

Plaintiffs suit was initially filed baucasa of the Defendants having becoming more brasent in
aich conduct, having esclatsd such inital consfeuticeial, statutory deprivations, this was hwaga? of such
concluded situations as expiated as follows:
Plaintiff was re-placed babe in disclosure group, under tha expectation, as dccuemntsd by his
treatment Flans, by Defendant Dbbier, as well as many other treatment professionals on his treatment team,
to re-present Ms timeline, to essatially catch tha new group up to spsad of his offending. Ohis method,
atough leasable, doss infact create such problems of plaintiff having to re-hash his already presented and
approved work, essetailly delaying his progressions, but defendants excuse was, and still is because, they
cannot simply allow plaintiff to 'pick up where he left off' becuasa 'the new therapists and group magfoers
then wouldent be able to give plaintiff aparrapaite and meaningful feedback, to his oifensss and
behaviors, becuass of not being knowledgeable of Ms prior presentations' (agian is a rfonhhi*. edged sward
fc-r the reasonings already matimad). However in spite of plaintiff many suspacicns of this process having

gone a*ry over the years past, Defendants cantinusda to assure plaintiff that all he would need to do is
9=> over his timeline briefly. Plaintiff excatosd, that is not really possible, becusa unlike most
residents at this Facility, he cannot simply go over it briefly, his offending is very iangthly,
widespread, complex, aid conflicting, which prevoltss many discussions of resident group mausDers being
confused. Fbr example, Plaintiff has infect gone from rags to riches, and back and fourth, from being a
spoiled brat, to living nameless on the streets in Chicago, which to most resiefedent group members are

(18)

confused on, how someone can live that lifestyle bscuase most have come from one fixed upbringing.
Additionaly, mast of Plaintiffs offending has been predominatly esxosing, in public areas, car voyering in
public restrooms, which has infact caused much contention anongst group members, beucase of most being at
1his facility for having brutaly raced, or taking avansaqe of others sexually. Plaintiffs offense style in
this fassicn essatailly pravokes many group members to become bafu.afQ.ed in this, pddng, eroding the
pLaintiff for more information, deleirbatly fustrating him, after many denials, and proofs of police
reports that of inquires into methods in which plaintiff did not use in his offendeing, that most others
have, i.s. force, raps, etc. This dynamic Iks essetrally caussd conflicts in plaintiffs sex offender
treatment groups beucase of resident group members being in the selfish unsmpethic nature, lashing out,
and refusing to allow progressions of plaintffs presentations, becuase of him stating things Irks, under
sections of 'mirrulapaticn tactics used was waiting in bathrooms for someone attaertive'. Others fesl that
since they had to place writings related to and becuase of feedback plaintiff gave them, of 'having
brutally raped another parson' becoming essatially spiteful, tring to twist plaintiffs offending into
where he would n&sd to place such similar wirings, in spits of police reports, and victim statements
indicating just as plaintiff took, responsibility for. For example, plaintiff had lived with an older
person, becuase of plaintiff being horseless, and in that, such person being in his 50's sought out minors
to offend also. In one conversation one person overherd plaintffs voice on the phone, and asked to talc to
tins plaintiff, la which piaintff was asked to pick up this parson, and drive him to this house, nearly 70
miles away with intent of sexual interactions. Due to -the reports infect refelcted the victim seeking out
plaintiff in this regard, group merrahrs cant condsve this, and indicated, and badgered plaintiff to
state, and write, he kidnapped and raced this person. Esstially the group members 'therory' was that
someone cant simply get at this facility for essetially vtets 'statutory rape' by concsntal seuxal
interaction, sought out to the Plaintifff, by a minor, and 'had to be something else there'. However
infact, this is most of plaintffs offending, as undisputed reports refslct.
PJLadneiff acSamsrefcly infocrEsd defendants of this 'caicam' ucon entering the new disclosure

group, in spite of such, repstive historical events, and even in spite of defendants treatment informing
pLaintiff that ’if he oonfcinusally doss the same thing over and over, and getting the sans result, do
sesvethign ciffemt' that if the 'doing the same tiling over and over' is their expectations to re-do his
work, which is creating such problems of 'stalling plaintiff out* is the problem, then wily cant he 'do
somsthign diffemt1 as thsy instruct. Again defendants refersd to that group members need to ba inframed
of offending patters to give appxrpsite feedback, which then ths plaintiff countered. if thats the case,
why does 'he* have to to that, under this reasoning, but esetiaily no other residnet has to upon re­
sitering disclosure, afterbeing removed, or why dossnt one have to do this, whan phased up to the post
disclosure group, which is with other members, that then were residents do their ofending cycle, i.e.
learning interventions, i.e. not having to 're-present all prior offending* <ia order for the group to
understand if.
However Defendant Dobior reassured pl-aintiff tret thsy would asks this process go smoother, than

(J*U

in years past, however plaintiff sgian raittsrated, if the process ias the problem, and stayss the
thsn what will be diffemt. Defendant Dobiar simply reassured plaintiff to 'trust than'.

iftus in spits of plaintiff many hesitancies, he agreed.
However, upon a few months of entering this disclosure group, ■this same dynamic once agian
seemed to present and nanfeat itself in the axact same ways. Treatment Professionals, x.s. Defendants
Howell, Smith, Sheldon then tried to blame plaintiff as to 'if the process is going the sans, hs
must be
doing something to ns1® it that way* essetially redirectino and blaming plaintiff to 'focus on. his
behaviors and 'not others'. However, in ra-explanirag this above dynamic, pia-ir^-ifft?
Progress notes was
feLsfisd by defendants by simply conclusinq citings of '
plaintiff diverts blame onto others instead of
taking responsibility for his behaviors, and his part in actions, and situations', without dopcaar.ating
subsequent circumstances to supurt, agian, if that vras dare, then would identify blame on defendants
feulty ana non ccmplinet treatment processes, which is concluded by this plaintiff, why defendants
intentionally make such conclusionary labels, without subsaqanafc b
suporttog deetials, facts, discripticn
of circumstnaces.
As this progressed, there was 2 main situations that led to Defendants onocLusians, to then
remove plaintiff of his sex offender treatment group participation,
essetiaily not premitianc him to be
afforded 'adquate' treatment, in which to where he could be ralasssed, only then rearing him to mental
lealth groups, as explaiend before. Oie being that fosuesae of these dynamic issues, treatment

team

professionals/Defendants begun, to conclude, plaintiff

not making sufficent progress in the assigsant
^his was calculated on Defendants unrealistic jactations,
53 compared to as explaisnd plaintiffs lsngthly ofending history, and patterns, etc. Defendants baslived
that it should only take a few months to do that, however agian, as plaintiff premptivaliy 'warred' them,
fo do a brief rsview/cverview of his

that it woudlent it woudl taks 5 years or more, that was, unless they wars going to prevent resident
- group
msabars from giving or offering feedback, thus iits their questions and unabilities to conceptualize
plaintiffs couotsroicting offending, and lifestyles that creates this process to se-take years, wh-sph
agian as explain'd earlier -of why, which is why defendants condcut of removing, and replacing plaintiff in
dLscolsure groups, essetialiy is the problem, that creates the lack of progress, as blamed to the
PLaintiff, as explaiend earlier.
2he other matter that cams about, is tliaft much of plaintiffs worfc/oressutaticis became and
was
allowed to fcs derailed by the treatment team professionals by group membars/residnets sabafcoging Ms
assignments that ha was told to do with intentional, dslierbate, malicious accusaticns that
was knowingly
felse. Such accusations include nothing related to plaintiffs preseentations.
par-ss like blaming
pLaintirf of sexually acting out an the unit, damaging stats property, etc. Plaintiff had calmly discussed
for months, haw thsse accusations ware false, and heresay, and was prefaced on g
intent, as facts and evichaca points to. For example, Plaintiff was
accused of sexually acting out, in
JMLte of the fact that plaintiff asked 'whan' when grrop msmfors
'last night on the unit* when
plaintirf asked for video footage to be reviewed to show- that ha was not on the yard, as claimed he was,

(1S>)

sappossab&y sexually acting cut voder the camra, witch was icrelvnat, bscuase the cemra, regardless, would
have ahowsn him entering, exiting yard, than socusstiros turned into sexually acting oat. with a spefic

inaivttial, residnst Asst, nils was soly based m 'roBas*. SispLy btcause rosiest Vast took a liking to
the Plaintiff, and continusaly tried to talk to him, and other residents, including group members, were
asataily running a 'sex ring' which either recrutes ns-w, younger resicnats, or solicits 'foot solidgers1
to be 'look oats* and car to 'start drama* agianst any non partidnants. As a result of Plaintiff being
simualr in age, as to Resident Vfesfc, as exposed to others whom are 20-30 years older from this plaintiff,
and residrs-. Vtest, Plaintiff sxclamsd of why they aesoicats. And further, Plaintiff inetioned, that if
there was facta?.! ixoof to those allegations, wondlent it be that group memsbr® could even somewhat point
to a general timeframe in which for adnsitration to review video, to try to shew supposed actions of this
alledgsd sexually acting out scouring. Bowavsr once that was proposed by this pieiritiff, many groini
members dsleirbatly lied, an.-; then bacame ‘vagus' in their refsrsd to tinas/days etc, which plaintiff then
identified, thats why, bscuase any time plaintiff, and resident vast v?as associating, was anteittcnslly in
view of video, which then cant be identifed as aimepcrocaits interactions. these residents her: verbalised
(outside of group) (out moreso their offending ratters and. Matcries abodes to this) that of wanting to
recruit

-dent ®sst into their sex ring, and bscuase he rather chcosas to assoicats with this Plaintiff,

and nor those parsers, precieved this •plaintiff as a 'threat1 to their antics, and offending behaviors.
Ircncially, a spefic indiuvdal resident Bice had infact offended, and victimsed resident test, by
grabbing him in the genatiles, vrith a held hand, as resident west reported to staff. However when 'thi-p
care up in disclosure group, considerering these dynaEiics, this resident Eics, was prssitad, aid allowed
by other group manebrs, and therapists accepted such, ass 'his mistake' bacuose ns 'was reaching for a card
ha put in his pocket'. Khich plaintiff exelamed that is B***S**t, bscuase ftores a diffecnaca frera a
•brush' versus, a 'held grabbed tend. Bswever Plaintiff ssstially was docuemtnnd and remove::. for and
accused of ’causing disruptions, and problems and refusing to take and accept feedback, and rather blesanc
and diverting attention onto others. Again by defendants cocumstnations, but inalici'casliy tr-racas?, of
fsilign to document these surrounding rassonlngs, only cmciraionary labels.
After that occursd, ironcially Resident Bice was progressed in trssntent, lacled .as 'taking
responsibility' and is and has been released on conditional release, simply bsuca.se all prior written
occueintnations of 'this incidnet* was distroyed agiasnt resxdnst ELce, of residdeent ^test's reports, ano
video fbccaga, rasidnet Biro being pmsitted to continue sc-xual victimisation, traastnet professionals
claiming =nd allowing it 'was a mistake'. Regardless of circumstances, feet is plaintiff has no idea and
is befuddled at why a victim can claim such, bit the abuser is '1st off with 'claiming it was a rnictake*
bacusss 'of soical acceptance of such', vhich is exactly wiy plaintiffs anger is so irrcienss in this
litigation, of the Rushvills praatrosnt team ©ssstially sabatoging those who went to progress in treatment,
and aiiov/ing those to progress that essntially 'cose then' or 'pill the wool over their ever1 with 'social
aolclusicns',
lhan focuses of those malicious rssidnets, turned to plaintiff 'causing disruptions on the unit

an

tie lived an. 2g±an this same dynamic
was at play, sad again irocnaiUy irtvovies
anothar residues;
Holing-wortn, whom is again released from the
i-rograss ciaamac as cfe&ng cr—itmsnt
Ibis was bscuese {agian,
clrair, take plaintiffs word for it.

rather such docuemcnatioxis
of thsir tsaafcsans raca&fe, srrf
patters refalctg to such) that residsit Vernon
was seeking out rssHnst aaUingawarth as a
yoaig
vulnerable, poor residnet, whom,
rasidnet Vernon has much finardcal
resources, and uses that to sexually
exploit. persons. In this case,
residnst Bsllingsrarth. rk?r tilts invovlcd this plaintiff,
WSS 3~ rm-.l y
hecaase residnet Hollingsworth and Vsmsi ware
or. tiie PTaintiffs llvign unit. Sssidnei Koll.ti>gssvortn
uas
m plaintiffs disclosure
cpsup, along with JSsJUSnst %qk»8 Rocsate,
(sgfea, sronciaiy released) Rasidant
Fsrroguet. Resident Vernon had made many attempts to talk 1
to this plaintiff, but being 'si older er*2ap’ in
that regard, plaintiff rejected, this infect is what
caused suchi disruptions, of plaintiff being adanant
sfesat not talkign to this person,
but Resident Vernon tailing offense so
thst. obis laaaafcctsd itself as to

tta raddm vm '^totag. t. mian naua^eh, mg
subject iiiasftlf to sexual interacticns with Residnet

as to why this plaintfif voudlent
version, bacuase rewidnat vsmon even would ’pay this

plaintiff to do so. Again, which is what caused such
'cUsruptions1 of much yelling, cussing, of plaintiff
exclaiming he nesriea to be left aicne,
and essetoaiiy these rssidnets
pressuring plaintiff fete tring to
’talc ana resolve -ths ••situation’ whan hs b-asrrt: intaristod
’ bscuass *ne knew* the novfcive1. this resulted
in resident HDilLn^v(orth bringing up, agianst the
Plaintiff, in his group, sexually
acting out. thich as
W£H 53 Residatn Ferroqust. Ihis of course, as explaisnd, ditoit
occur, and as can be ■sas-i oa vidao disit
occur, as plaintiff pleaded to be
reviewed, but staff, and defendants refused,
And when plaintiff vas
blamed as for than tring to rather discuss
his invoviemait, and when he ssalsisnd that vas bsucass lie

refused to sexually act out, for tness
reasonings that such accusations wss simply bscuase of ths
group
renters tring to cover up their conccut,
to bleats plaintiff,

and thus resulting in either 1 Of 2
teas defendants, rasmting in plaintiffs rerovdi
anyhow, for accusations than of 'bin refusing to take rescoanibility
or 2, antigcnizing plaintiff with
countless rentless accusations, inciting
anger in him, lashing out, leading to him being removed
anyhow.
However defendants, refused to toooinent facts
’ rather contmuted to cocuumif
conclusiooary labi&is, and
also refused to investigate tfis matter, i.e, video
to prove that it infact: was others, as plaintiff
blamed, and not him.
Pbssrtiliriss. 1 being to instill doubt in the treatment

lhan as Dsfsndaats after sent(is, of yelling, cussing,
screaming, in such groups, which
ironcxally, plaintiff was advised to 'is and
remain cafe. Again, plaintiff pleaded, bow fe that going to
Sx the problem, his calmness, will not remove this. Plus
coupled wish, when plaintiff was than accused of
'sanaplizing croups time wttn. 'such dicasssians’ i
in spite of than being forced to feUc about it, becuaas
ss docuantnad, hit than conflicts with ’shutting dowi,
sic- not spsa-dng' which clearly eludes to this
Ftobhac, end cover ups. How can plaintiff 'monalipiza
***** ti2®» **
’shot
Btfe was
prefaced on the fact that it was agreed (or so
plaintiff thought) -that the previous
£^y, that sines ths
vole group time was spent discussing the matters,
that Pna foliwing day, it woudlent be
discussed, and
Pteintff needs to step discussing siwh.
Hbwaver, Pie prcblsm why plaintiff cannot do that,, is simply

&i)

because group members intentionally arivad at group, the very next morning, 10 minutes early, to
prenptivally bring up and discuss new false accusations. T,vnich upon plaintiffs mitering, was then
hTTC-reyre-ri with questions to awaser of such false accusations, Khsa he refused, claiming 'he thought we
were not going to discuss me today'. chat than plaintiff got blamed by treatment, professionals, in. written
docusiTitnations as 'diverting onto others, and refusing to take responsibility'. Shan when, in the sasa
day, and sans group session, plaintiff was urged by treatment team to follow their direcfcirai to discuss
the matters, then conflicted docuentnatkais stated that 'continued to nmalipize groups thru, with
focusing on situations and blaiising others when he was redirected to not do this'.
after plaintiff finally stormed out, in fustratim, by being intentionally and dslcdrbatly
entrapssd by this regard , and the so called treatment professionals being minulpatsd by ether non
professional group mssebrs, to entertain such discussions, without facts, evidence. dhen Plaintirr was
called in a few days later, agian to discuss missing -natal places out of the units microwave. In spite of
a shakedown of plaintiff, aid in spite of nuaaoos irate bshsviors by Rssidnei: Perroqust, and Vernon
allscsgjag, -the plaintiff still has this mstal place -and will use it to shank, someone ana inspits of than
video footage proving residnet perrocuat having been seen taking ' somthign shiny out of the ifilcrcwsve' and
'throwing it in the units tragi' and than incident reports and records of this situation bated distroyed
(yet plaintiff still has affidavits of impartial resddnat witnesses to thsss svents in. spite of such
docuemtns sssrongly being distroyed, becaass of defendants, and courts being or claiming ignorance now to
these issues). Plaintiff was still blamed as bahavirally outbursting onto others, blaming others, refusing
to tske/accept responsibility for his actions and bsahviors. Sgian as by conclusionary cccusatnaticns oy
defendants, absent of 'what those exact behaviors, and siotuatiens of dates events, times, rasindets
invowad, and any corrlnting evidnacs, lies incidnst raprorts, or video footage, (v.hich ironcially in emaiis plaintiff retained in discovery, defendant dobier .metioned of rscisving reports, that plaintiff was
hiding under camra sexually acting out, but irccnailly, no 1 reports' i.e. staff inddnet reports, are
£>unh, again, only ‘rosicSnat hearsay, which. than, why wave such resAdaets not. written up fer lining to

staff, why, ma-ini-iff awnsers, so defendants, and stats attorney could progress then in treatment and hide
these baahviors, and release than, endangering coasrunity/society, under the guise, that to justify
programs existence, claiming when they reoffend, or vioalte c.r, rules was 'the residnets choice* not
hacuasa, as facts prove, bscuass of inadaquate, and

trnntnant progressions, rather trastssat

professionals, and facility staff concealing such, allowing .such progressions, foacuasa otherwise would
identi fy such staffs lack of professionalism, to avoid that, blame resichots, or ignora events in this
regard, of how such was mishandled, and rather encouraging rssicnats, as treatment motto's are as
reflected in 3-nails in discovery prove 'for the meidsnt to gat out, and bs free, and not be right* I.e
disfcruoingly that no emphisis on 'not reoffending, rather only 'to get cut' by 'any means necessary, even
as given rise to, by minulapating the system, and casing the treatment in such regards).
ULtiimtlly. plaintiff ms then removed from disclosure group, placed in mentoring groups under
tee premsis that by Defendant Dobier, to ccsaplaate assigmsnts, to thu trsatoant. tp-ans satasficalhon. Ifest

CZ3)

of these wasnt a problem for the plaintiff.

®iat is, mtili, he noted that by defendant Dobiers
instructions this woudlent taks more
than 2 months (aprox) after scout 4 months, plaintiff ftleci
a
gtxsvance, indicating their lack of conffllainoa.
Plaintiff was given a assigment to

'essstially omit to 2 sexually acting out ineidaets,
one
sesareas". Plaintiff then wrote on it, stating he oouldent

recent, in the Oast year, and me most a

ceapiaat-a it, baucase it requires him to lie, csniting to bahavicrs h
e didn.t do, i.a sexually acting out
within ths last year. Defendant Dcbier
this,
hy blaming plaintiff, stating, he refused to
crapleate tha asgiasnt, and reufsed to take
respoanibility. Plaintiff grafted this, inociating this issue,
Grievance resposne simply was denying this spafic assignemnt
was given, to Plaintiff submitted the
handwritten assigment that stated exactly
as plaintiff claiemd, that defendants just lied abotr
blaming
fiaiiitiff as to not accepting resposnihiiity, and not doing assigmants,
agam, being conclusive, without
stating spefl.es, sgian, wxthotu staling that
plaintiff refused baucase they required omission of lies
i.e. omiting to more
sexually acting out, and in recent timaframes,
opposed to what plaintiff actually did
(this was hated on these prior discusseed/expiaxatfi
accusations, that cseisaants had to make their
'informants information correct, and subjected pi.ain-Hf=f

to the- pressaings to do so', which also
vioialtss plaintfifs 5th amsidmsot constutional rights, and as well

fs>Afier plaintiff safcsELtttad <a^h
i proof that treatment team was liexng,
and reqaring plaints* to a&nifc to
iiss. lhan Defendants daspreatiy
ttasd to claim, and deny they ever
required such amissions by plaintiff,
tot again, docuentascl proof, as
submittad and plaintiff still has as
produced in discovery, and sora that
®ant Shows oths™to to Defendants claimed as a • collective i
treatment team decision pi-^n-r-j-pf

was
going to be remvoed irrem an groups tin he decided that he wants to fetes
responsibility, quit filing
grievances etc'. inis now adds
another constutional vaoaiticn, of harassment and retaiaiticn
(l.a.
removing plaintiff from groups not
aniwing his trsatmant pr^saetdeatiori,
becuase of his grievance
activity). Plus, in conflict to courts, aft dsfenfeuts
(iil
sasasry judge®*;} that (.Fsrapirased)
Plaintiff -'iS3 aiusys seen qiven
’some (menial health)
tteatmsnt'. Plaintiff pointed to SDSfic
ricjmsiitaticsn in sasaacy judgment, to whss$ (via s
s-aans by Defendant Dohier) plaintiff
fes ’removed from
an group rnrticipstim. inis clearly means that Plaintiff
at such points, was not even given 'so*&
treatment. as enurts ana
Defendants attorney hraggs about, is
rsqm^d by antiquated legal standards that
to use to justify defendants actions having used,

****• ■* <—*». * <*»—*».

““““ “*■ “

troves that ths Plaintiff has not
l^sn given the entitlement to 'some trsatsant’
as evai they brag about, is mmreuily required.

£:Jch> hy- «» Quarts torn that defendants

Based on

committed no vioaltions, when clearly proof/evidnaca
says aid
Points to such. Hfe'ica courts findings, an that regard,
is faisefiad, and with delibarate and. intentional
error, beyond harmless, but
assenting to prejudicai, bias, judical nuscofecut,
and error in manafest.
rince than, Plaintiff nas csrained in 'mental health
groiqK, i.e. srsffically only 1/ that

^sng power to cnagna group. Such by these facts,

and circumstances, evai as omitad by defendants,
suppoatobiy puts plaintiff at .. mgher risk to reoffend
if thats tha factual cas® as fi-iru
Jisn by standard ssx offender treataant reguatlicns

he recievaing 'aaass* treatment, not*, less, by removing him fees disclosure, asst offender spsfio treatment,
aid only prendxting Mm atttandanci, and participation in on5 mental health group, power to change, vMch
neats half the hours car vast that. cnsclosurs group meets.
Furtrier, dafanfents, and any other traateasit team professionals, nave, in than timefrsra,
prsdcrdnatly relied, on and focused on 'plaintiffs behavioral nanagrant* as reasonings to justify and
blame onto plaintiff, as to why he i.s not .progressing in. treatment. Howsvsr cefendants treatment issuings
that are soly basso on •behavioral aansgaent1 is infect idsitifed as not sufficent to produce long term
changes among clients. Title 20 section 1905.100 (c) (2) as yell in Title
Title 20 Section 1905.100 (b) (C};^jme 20 Se^nJJOSJG^feMJJjJ^e 20

Having said that, Defendants, and other non parties, which courts dismissed, but is entitled 'bo be
included, under continous vioaltions dostrxnas, as cited in Heard V. Sheehan, infect coratrary to courts
'Sir:*

»**

rulings, does in fact asst the HSsubsrt* test under Kg«tVsVMmDgl SSiSlSSSSS^S^ JS2SJSr.
Burlington which infact that nsfanfents professional jusbgeits wars infect falsfied, ana not based on
. mc

±- w:r-r*r*?:;tj i*.-

standard practicss, rather a substantial departure from them, courts, howawer, as w-il as defendants acted
with judical MscmSeot, bias, prejudice, error in manifest, in their ‘soaiazy jdugsent order* claiming of
a not quoted part -of title 20 section 1S05 by tha Plaintiff, to cxrcnvrnant their liadbility and faisfiy
the record, by claiming that tnsir part of title 20 section 1905, fio-iant snsficy the methods of ixeatasax.
<&fandarrts are rsouarsd to issue. However courts, in their itomaary Judgment order, falsfis-?. teas baucr:..„o
of misquoting the part of titfe 20 section 1905 plaintiff did. Courts quoted a part plaintiff did nor.
Hfect plaintiff thin qava spafic -bcaest and rage razsfcsr, And paragraph rasabar, in Which was alrcaoy
filed to liie court, ia hrls sussary jdugtent respsaoa, tftat of the sections of titls 20 ISOo ts.se h«
ssdfeESd to, which was not what the court*. said. Plus, tha court niso falsfied. srrorod in .amsfe^,
prejidicating this plaintiff, delairbatly, by claiming ha naver daosad f^fersferstR docuamfnations and
records were false, however, once agum, plaintiff painted appellate courts to wisra theca was the spsflc
parts, in his stam3ry judgment rsspounes where he sperfical_y said that, oy stating defendants li-a.. «s

well in the multiple instances of defendants falsfied docuemtnatians, and records, by such conflicting
decisions, and records, basso on same circusmtancss, and situations as plaintiff prodominatly explained in
S3 far. In spite of that factual esvidnace, on rscotd, of courts rulings are intentional ana rfeleirbsts
feisafiad , and prejudicating this plaintiff, to intsatioaal Ly, deliebratly rulo in. favor or aa_e:idsnts, to
avoid their Usability, then essasially ‘adds' to the prdbl si, of tiKn creating judical misccdncut, bias,
crojuaice, error in manafeat, by failing to comply v/Lth legal standards, and controlling lafe, that
obligato courts to nils by law, not baasd on wiist tfiey basltve, not based on sefendsnto profewsionm.
jaugments, not based on public oolicy/orferlinaes. This is required: Spaic3l _ral^tipp.5hip,..spsclal /fety,
oovemnsat.
}b3off . CLteens fflited V. Federal Stectiaa Gauristign, aflat.V. .$&&&& gg£.It

-

j^^^^...Py..^P9ssacutUials. carter v. Carter, Eeisbv v.
,lT:"rh'*• ■ i >t“T* r”‘nr v n ,

S^S^hJSLlSLSSuJSSSSSSS^^ Gludctourd,
■‘

VsJbBBB Dims, 225 ncs 1GS/40,

fwara.3MCa.aie»A.

725
n£S 207/55,
" ' ‘r‘~' ^“•Aav&Trjaaa.'g.gtt a
}aiga, v

s^a&^ss^aaiabJBggia^aaaa, «■" v. Muse, sain v. m. n .«

» ^-Jr-yi y.

°3urts also seamed to all® defendants to prevail, on the sitrole psaamxas that they

corrected
the conduct, however, the irony is that, (1) courts cannot singly render case scoot, i.e. allying
defendants to premil, simply becuass they ceased the conduct, and (2) it must bs steolutly clear, that
the conduct- cot&dsnt possibly recur. Considering :natry of these factors,
of defendants toasting about
mages of 'professional jdug3isn.ts' toich then is allowance fer the possibility for such to rscurr, under
ths guise of 'changes in their judmgsnte/drsansssiort, and simply becuass of the unrsaliahilitv of the
XBsmsnz group nssebrs, bringing in -and their treatment program being allowed and to entertain dynamics of
'behaviors' even faisa/hesrssy ones, in clear conflict -to stanch sast offerer treatment regualticm, of
tiUs 20 section 1905, in the sections ratimed in so far, clearly tha 'sane issue could and is infact
likely to oceor. Hence, courts allowing dafentoate to prevail, especially rendering tha case moot, then
\iolabas and fails to comply with legal standards establish! in satonara v.

Turner, People Ex Rel Miller

..... -%n 31&3° Citizens For Quality Bdcuation y.
'

1

"

,lTrT%' 1 ^/L

"■

1

''**''"f-'K»srfi~iseauJsiKa^»^».»

Earth Inc V1. Ifiidlaw Svti Servs Inc, Schulte V.
■*

T-Wi5W*»S.

-- .

.... ..... .T •

Illinois,
bought the litgiation, plaintiff filed proof that addilfenal, non defendant treatment
providers, continued to enagags in oondcut, while hiding behind toe 'professional jdugcsnt* that ositinsud
to vioalte such rights, and substantially departed from standard sex offender treatment reguatlicns
standards in title 20 section 1S05, while issuing treatment to the plaintiff in which plaintiff is
entitled to snjoiners, which court denied, essatially continuing their judical ndscoadcuf, Grojudi.ce,
bins, and error in manafest by then not complying with the legal standards requiring enjoiners of persons
toon continue to violate rights of plaintiff, not needing for him to sue seroratly over eve-- separate
incident: Heard v. Sheahan.
Cburts also failed to comply with their own local Rules Of Federal Ruleas Of Civil Rroceudres.
j.-tt

^tZdigUEL^US^^»Jaa«.y?. Atterholt, by granting

a.w.iaos:-*—

summary judgment in favor of defendants,

having relied an their professional jdugmenta, while not, end intentionally ignoring, and not acolyinc the
oonflxctmg avidnaca provided to prove how defendants professional judnsgents ms act only falsfisd, but
based on substantial departures from standard sax offender treatment rsguatiicns. This -ms because courts
failed to infer, construe, all facts in light of and in favor of plaintiff,
as being the non roving party,
in summary jdugmsnt. Rather courts construed and applied facts in favor of the defendants, by relying on
taeir professional jdugmsnt, ignoring the departures, and falsfied docuemtantions
as plaintiff provided
to the court, by nsvsr speaking to those parte, and rather only MrLcating and relying on the assertions

and professional jnrfenganta, and itisfuicant conclusionary labels, of than, essstailly construing, and
applying facts In favor of the moving parties, in sunarary jdugsent, the defendants and not, as legal
standards require, to rather favor the plaintiff, whom was the non moving party.
In addition, courts ignored the fact that plaintiff is a pro-se litigant, and whom coss not have
to respond to defendants sanssmy jdugmant at all, and any/all inadequatices, or non responding to material
facts, shall not bs used agianst the plaintiff, as being to grant defendants susstiary jdugmant in favor of
defendants.
Courts also failed to totes it upon thsosslva" to ensure plaintiff had a expert witness, and or
counsel to assist him in this litigation. vMle courts have boasted about the lack of avaS.bilitv of
willingness of counsel. Thats irrelvnat, to the matters the Plaintiff presented, that such matters invovls
chaiianging defendants professional jcugmants, as plaintiff being a lay parson. Subsaqueatally, courts arm
under obligatica to locate counsel, exoart witnesses for favoring the plaintiff, at least corns time in
summary jcugmsnt stage, leaving plaintiff to ids own. devices, to challenge defendants profesisanal
Augments, and courts ralying on than, whan pXaiitciSf clearly poirfca-i to thatr falsrisd dOfsasniluisticns,

and substantial departures, than put the plaintiff at a substantial disavantaga, allowing dersrirlarrfcs tc
travail. in violation of: Bracy V. Grondin, Jackson V. County of Kdtosn.
Courts also adamantly dsnisa plaintiffs ability to contemporanicusly invoke criminal charges,
agiasnt dsfsidsnts, dalrixig a falsfied ruling, that they font have jurisdiction, such belongs with
criiiunal snforoscartt agisncies. Hcxoavsr the reasoning

that ruleing py courses is false, beucase

plaintiff is entitled to recover on criminal conduct by defendants, under Title 23 U.S.C. Section 1343,
1357, 1367,. By Defendants coacaitina conduct, while excsrsisSng professional content, that was infer 2 or
mars parsons engaging in condcut, (use of professional jdugnsnt) in. wnich did infact corriat^ to
ospsrlvations of such eonstuticnal, and statutory rights of plaintiff, in suits of courts rincmgs thyy
rtf g not. Courts sssaect to intentionally and dsleitbatly rule in favor of "sfencants, so they woulcteii. be
£ouna irt violation of sucii ceExnslstsl

in that

un5sr tdtf-Si ts cj.S.C.A. S—CtUm ^41, 7^0

TTrs 5/33-3, 720 rtf?? 5/12-21, Such rulings by courts, to deleirbatly and iasentionally avoid findings of
Usability agiasnt defendants, iniact is what creates bias, prejudices, judical nisccdnuct, error an
nenafest, hancs requiring reversing, ana romanrling by this S^arema Court.
REASONINGS EPS GRANTING THE WRIT
ibis case invovles long standing praddential decisions cited herein, that invovles, and
requires doits than just some treatment to be issued to a sex offender (HLaintiff) radevsing treatmant in
a civil coasnittasnt setting. Such issues, include, tut are no way limited to, the constutional rights
under 14th amandmsnt due process that infact requires 'adequate' treatment to be issued, in manners that
afford persons under civil ccxEiithnent or oonfinmant standards adequate treamtent in which affords that
cerscn meaningful oppumuities to then subsequsntally be released.

(11)

standrd methods, identify that behavioral nanaamait is not approrpatie, and not a critera to determine
ores progress, or lack, there of in treatment, and infact is Identifed as 'not sufficient to make long term
changes amongst clients'} "which by such professionals/defendants being given sx&nission (essatiaily by
plaintiffs never being pramittsd to prevail agiast them) to use/excarsise broad jdugment, in. light of oraich
evidnace proving how their judgmsnts substantially departs from standard treatment) they have been
oontinusally allowed, and pranritead to then entertain such 'high school like antics' amongst groups
members, which infect only perpetuate cries risk to reoffend, which ircncially is why reisdents get out on
c.r. and violate rules, beucase of such so called treatment professionals having entertained and allowed
such residnets to gain power and control issues of such vulzieerable persons in group. Bor example as
plaintiff explained, such group memsbrs, like Berroquet, Hollingsworth, and Vernon being permitted to
sabatoge plaintiffe progression in treatment, and group work presentations, with false accusations of
sexually acting out, and damaging state property, simply bacuasa of a 'hidden alterior, malicious agenda'
to oover up their ’sex ring' antics, and methods to 'remove plaintiff fresn the living unit, so such others
could, without plaintiff giving rise to such parsons exploiting eachothsr. Also to remove plaintiff frem

such groups, so they wcudlent be challenged, car brought up of thsir offending behaviors by this
pLpaintiff. As sxpLaiend, such rentless accusations, being pramLtted, becuase defendants/treatmsit
professionals at Rushvills Facility are so focused on obtaining anything to use agianst parsons, they
infect perpetuate offense behaviors, in this regard of Resident Bice being pramittsd to 'sate by' with his
offending victimizing behaviors to another rssidnst was 'just a mistake* as beucase of blaming plaintiff
so much of such false behaviors, that defendants continusslly entertain without investigation, vhen they
ace not even, to be allowing 'behavior nanamgent* to be .part of ones treatment progress, nor to make
treatment recosTeridations based on such behaviors. However plaintiffs treatment for years, baa only seen
prefaced on this, becuase of allowing residnet group members to bring in, ah rsntlessly tormunt him with
accsuations, of behaviors, whether true or false, which infact derails plaintiffs abilities to focus on
his of.renUi.ng bsJiavicro, wHicH th^n doos not af£orf pTa1n.ta.ff abilities io focus chi 'the things that

brought him to this facility* rather focusing on such behaviors that usually are in this exaplained
Such so called treatment professionals, for years, have sucessfuly circumvented Usability in
such regards, and continsually being allowed to use discrassion, and professional jdugment, being
'unchecked* for credibility, asking exclusionary labels, like 'fails to take responsibiloity for his
actions, offending behaviors', simply by such professionals exclusionary writings in such group sessions.
Such is why, in seme other legal proceedings, have reauyirad audio/visual recordings, so such 'false
interpretations cannot be allowed. Such allowances of unraaualtad standards, courts allowing the Rushville
Shcdlity

fenai tsam/defendants to run amock with their juctagsats, has caused problems in this regard, by

then the state, and svualtiors relying on such so called professionals docusmts and conclusions to say
cne progressed, or oompleated treatment to their standards. But no one has ever questioned 'if their
standards ware correct* in such findings, becuase largly they instil to residnets that 'just do whatever
ha needs to do, to get out and be free* without smpMzing non offending lifestyles. Ebr example, requiring
residnats/plaintiffs to disclose things (i.e. unrsported offenses, or sexual behaviors) that oceurad after

Ctf)

ones predicate offense (offense leading to ones canfLnmerit) under the 'intimidation'
(baucsse of usages of
their autoroity/judogenfcs , if residents donfc oomply, wall not progress in treamtent
as not allowed by the
professionals at such facility, uniass a residndafc agress to 'do it their way') which
rsguatlions indicate
that to withold such disclosures, (as explaiend and quoted herein)
and as wall as by constutional rights,
to be free from and protected agianst self incrimination. which such so called professionals require
such
rights to be given up, if not, with intimidations and threats of withailding ones progressions in
treamtent. Ironically, then 'sign off' on residents ccsrpLaations in treatment, denoting that they
•have
fenowed/coraplied vnth all rules of the facility, meeting behavioral «expectations. VMch is a Ms, aid
felsefisd records, becuasa infact the zssidnst didnt comply with 'all
rules' bsucase he had to violate the
cries requiring witholding of such disclosures, in order to
'do whatever he needs to get out».
cefandants/rushville treatment professionals 'signing off cn' as ore nesting behavioral
nanagment, is then clearly a lie, and felsffed but no ore challenges this, toss the residents
are aware
that if they do, they will be wifheled im treatments progressions, unless they agree to 'do it their way*
which is in vicaltion. Ironcially, this is a 'barrier' to treatment, as lablsd 'casing' or 'felling
cne
vhat they want to hear just to please than'. But ironcially the treatment providers 'ignore1
these
harriers that identify ones high risk to offending, to essetially be able to inpose treatment as 'they
<3sem necessary' which 'largly departs from such standards, and rsgautlicns, intimidating the residnat,
with 'if ha dosant want to do it thcrfr Wi hs can just stay here for the rest of their life*.
mtimatlly
most residnsts 'give in* becuase ‘they want to get out* and can careless of redeving treatment in which
mkes them fetter, to not reoffend, realizing if they dont 'give in' they will ultimatliy stay here for
the rest of their life. Hie only other alternative, is to allow the such so called treatment providers to
have it their way, sign off on their treatment with the resident ignoring it was done in a multitude of
vLoiiations of rights, and standards for sax offender treatsait, and infect identifed as by methods that
are not sufficent to invoke long term changes among clients.
Instead of 'staying here tor the rest of ones
life' usually a residnat than decides to •ignore these methods that only makes a resident worse, and allow
them to do it their way, in vioalticn, baxase of 'wanting to do anything to get out' arid • screw reducing
his mss to reoffend' but wants 'to make it appear that the professionals r**i™=*
he is a lower risk, when
as explained, he really tout. agian, bsucase his treatment progressions was largly falsified, signer, off
cn, by such professionals ignoring the methods in which the resident

^th,

was only making then
worse, identifed as by standards of treatment to not produce long term changes among clients. Mother
eras,
being that the treatment objectives checklist, indicates that asignments are required to te signed off cn
33 the client complaatas them, rather rfi i onfe allow
to te violated, to just do anything to gat out,
even if thats complying v/ith their instructions that largly make him worse,
baucass as ons can find, such
assignments are ratter signed off on all at cnee, by the treatment team, in violation of even their
own
rsguatlions.
Botot being, most residents, at such fecility allow, staff, and treatment professionals -to have
it their my' hscusae of being intimidated into keeping them there for their life, if they give rise to
asch faulty and non complaint treatment issuings. Ihis process, then largly idsntifes a residnat

having csnpleated treamtent to the satafication of the treatment professionals, as relied on by the state
attorney as such, releasaing a rssidneet on conditional release. 2hen a resident vhom vras so used to
ignoring rules, and simply doing as ha is told, gets on c.r. and winds up violating it, bscuase of
CDHidLeata disregard, to rules, under the impression for years, that has been astilled in him, he cosnet
have to comply, as long as anthroity figures allow that to I be violated. Older this guise, then the
rasidnst is h=-fivvn<yi an why c.r. agents violate him, and bring him right bade to the facility, agian, its
often Hanwafl as the 'residnets choice1 but infect was bacuasa of the dynamic, at large at this rushville
facility, by not just the treatment team, entertains, and nurtures, crspleinca only with what staff rant,
ana mostly is in violation of rules, which is never documented baucass staff are satasfied with and settle
for 'ones compliance' and can careless about rules, subsequentally instilling in rssiensts, 'rules ass
pointless if authority premits them to be violated', such is not only the plaintiffs baleifs, but as
proof shows, in systemic evidnace.
Such methods, largly, is with deleirbrate and malicious intent to justify the facilitys
oKistancs, blaming the rssixidet, o£ hie behsvdcscs, boasting 3ueh to sooiaty, of the rasidnets choices,

then such has nothing to with that, rather bscuase of such oapratienal, systemic non compliance on staff,
aid treatment professionals part in such explaiend methods.
Mist of the time, when resdisnts litigate such issues, they are inticad into settling suchsuits, with then the professionals 'fast tracking' then through treatment, and being released. Vhich
agian, creates such exact same endangazment dynamics to tlis sociiety/csntii?jni.ty, that the professionals and
staff at the rushville facility once agian skated by with legal liabaility, signing off a false
documentation of one suppossably doing what he needed to do to compieat.e treatment, becuase of esse being
inticed for 20 years, of encarceration, to just let them have it, so he can get out, and be free. Again,
uLtimatly the residnet gets out, and is a high risk to reoffend, but such is docuemtned, for reasonings
exp&aiend, otherwise. Such isnt 'treatment* if the residue! wks docuemtned as a low risk to reoffend, by
such

g J an<3 state evualtions and attorney general, bat no investigation want into any

conflicting facts of such professionals judgments, as explained herein,
Because of the state attorney general inticing residnets to accept settlings of such
litigations, by such methods, esseitally the problems spoken of herein, only continues, ana gets worse,
and perpetuates itself which is why such litigations from this Rushville Facility continue, bscuase they
avoided Usability for one indivual, but still invoke the systemic problems, to the rest of the facili.tys
eparations, and agianst residnets, ultimatlly provoking more and more litigations, of tile same natters,
and or then subejeting all other indivudal rasidneets at the facility to such problems, just bscuase that
cne osrsen/residnat was able to prove the such issues and settle the ligiatioa, but untimatly, settling
it, still allows such profassionals/dafenfents/rushville facility to invoke the same systemic prcblems to
all other residnets, thus the problems continue to nenifist itself, in either more litigations, or that
resident being given treatment issuings, that fell to sake them 'tetter' 'reducing risk to reoffend',
tecumentatims refelct as they have improved, bat only because of such 'concealed' unprfoassional and

(31)

Illegal methods employed, x.a. such rafslctions in docoamtnatians
srs only basing taken *on its face'
*thout aver dxOlansing lf
dadsta, ^
^^
was done by complisnca
S» such standards, or by, as done, methods that largly daparc fran
accepted standards, and infect are
idnstifed as ‘not sufficsnt for producing long tana changes
among clients'.
Bn this litigation, as plaintiff explained herein,
the lower courts lave continued this -inpga-;
aid constutionally offensive
pnxsss, by falsifying records of proceedings, by misquoting the plaintiffs
filings, having favored the defendants, a
tn sunnary judmgent, failing to apply, refelcf, and credit
plaintiffs evidnace that he filed to the court,
as well as provided in discovery, that shows defendants
aid rushville clinMal teams treamtent infect is
falsfied, lied on the plaintiff, and largly substantially
departs from standard
sex offender treatment regualticns, hiding behind their usages of professional
jdugments, in which courts are under legal obligations to compare, and contrast their
usages of
professional judgements to standard sax
offender treatment regustlioas. lower courts failed to comply with
these legal standards, and rather relied
on the Rushville facility/Dafendants usages of professional
jdugmsrsfcs, wifchsufc ever identifying the facts of now its illegal, ocnstutionally offensive,
and
substantial departures from standard sax offender treatment reguatlions. lower courts, while ruling in
fevor of defendants, in summary judgment, infect feilsd to comply with
sven their own legal standards
cited, as claimed they applied, bit obvicuslly didnt, i
in areas like, they are required to favor and
csnsture facts in light most favorable to the
non moving party, which In tills litigation would infect be
the plaintiff. 3he lower courts rather oonstured facts in favor of the
moving party in sunraary judgment,
the Dafendnats, by consruing facts, evidnace,
ana their professional judgments, and docusafcnaticns in
hair favor. Ctourt only, in their summary judgment order,
relied on 'chery picked' portions of defendants
cbcuemtnaticns to identify blame and no
3KEXt
Plaintiffs claims, instead of applying mounds of
conflicting docuemtnations and evidnace, plaintiff provided, that shows how that
intial xSoouemtnafcicxi, by
defendants, wss false, and a lie, and not based on standard sax
offender treatment reguatlions, rather
their professional juemgsnts in Milch largly departed from standards of
sax offender treatment guidelines,
aid reguatlions.
lower courts also srrcniocsly dismissed, and failed to allow piain-H-Pf to
antaz-Lain and recover
on proof of cany constutional vioalticns,
by Defendants treatment issuings, as opposed to the one claim
courts allowed under 14th .amendment procedureal due process,
Speffically. as plaintiff explaisnd herein,
plaintiff provided to court, docuemnts provided to him^
in -discovery (e-mails) that proved the plaintiff
has, and shall recover also on first amendment harassment and rstalaiticn
nis greivan.es
activity, by defendant oaiting that plaintiff will mn-Hnnaj to :
os held up in treatment, untill he ceases
Ms grievance activity. Plaintiff also showed
thresh dccuemts provided to the court, that defenefents
treatment program largly is in conflict with standard ssx
offender treamtent regulations, and ounscotional
rights, speffioally requiring seif inceimination,
in ardor to progress in fee treamant progrgm. m spite
of written treatment wars claiming they dont and advise
of such '«*3ngs to be witheld, agian, their
traatmsnt as united in e-raaiis, conflicts, requiring disclosures of self ineriminatam, vioaitiens of 5th
amendment, and if a catent refuses to give up those eights, OUe. intimidating him to give them up) (i.e.

criminal vioialtions, ontop of oyh canstutioaal violations under Title 18 U. 3. C. A. Sscgdqri 241) he Is
escsti-ally threatasd under professionals authroicty aid juchigants usages, to not progress nim -*n
treatment, till ha gives up these rights, and 'can stay at tills facility for life'.
and falsified the record, and thair rulings, hr/ claiming, in their susaary
tower courts
judageat order, of things plaintiff never said, near quoted, for example, claiming plaxntff supposedly
cited title 20 section 1905,50 which courts claimed dosent spsficy anvthign of how professionals are
required to issue treatment. Plaintiff iftect pointed out to appellate court, which they dslierbatly
ignored, continuing illegal conduct prejudice, boas, judical miscodncut, error in manefest, by not
Identifying the fact that plaintiff pointed cut, in spefic summary jdugmant respesnes, where he rather
cited other carts of title 20 section 1S05, there sudi doss infect sp=ficy,a nd require hov tbs
defendants, and treatment professionals are rsqwuired to issue trumatonent, in which they are substantially
departing from. Courts simply ignored this, to favor the Defendnats.
Courts also claimed plaintiff stated, in thair summary jdugmant order that plaintiff cannot
jarogreess in -traanfcanfe bacuass facility rules prohibit plaintiff/r-aeicnnts from having sex with
sachother'. Plaintiff never dLaiemd this, nor even aluded to tills, essstiaXLy felsfying and lieing cn the
record, further, by 'putting words in plaintfifs mouth'. Plaintiff rather exolaiand, his issue is that
facility vzill not allow oro-social sicilxs, that they claim that they teach to residue t-S. ihfe is beetle
any time -any residnet, like the plaintiff expresses sexual instsrist in another, they are imnediatlly
separated. This does not allow for ratetimships to dsvolp into a pro-social tehlam, which is not sexual,
plaintiff never said That, pro—soocal behavior, largly Curtails and requires residents %.o leat n«w -o
express healthy saxusl i nceractions. Ins Plaintiff, being h-^osexual, has identifed many issues with
inabilities to sccalize with porssis whom ha is attracted to, in a non sexual way. Defendants, ano the
rushvilla facility fails to allow treatment issuings to teach plaintiff and others, tu* to engage in
social interactions, in a non sexual, teit healthy way, with parsons they are sexually attactea to. This
fali«r<s, ky using 'avol^se*' msthoas, which, aggian, is identifed by standard sex offender trsanaatn, as
not suffleant to produce long tens changes, nor to reduce risks to reoffend, these methods, is what mfact
perpetuates ones risk, to reoffend, bacaass one, like the plaintiff never learns social skills in how to be
around others whom ha is atracted to, sexually, in a pro social manner, bscusae he always 'avoids' boucase
the facility discourages airy parsons from being around eachothsr whom are sexually atracted to esenothar.
1'hich for the rl-aintiff, is largly Ms offending issue, ted predcadntaly exposed, or voyered, on others,
bacuass he failed to know how to engage in verbal, pro social skills with persons he was attracted to,
i.e. in order to get sexual gratifyatirn, bscuase plaintiff cidnt know how to 'ask for it' or engage m a
teiatiensnip, would engage in immediate gratifying offending bahavior, agisnst those vhem he is attracted
to. At qnch rushville facility, anytime plaintiff expresses sexual interists in a rasidenfc, ocher
rasidnats become jelous, make up theoroies, like in plaintiffs stamfcents, and facts in this litigation,
then defendants or clical teacapists/defendants separate them, preventing team from being social, and
wifnoldiiig sexual interactions, essetiaLly deprivaing plaintiff from learning proseci.al sldlls with

(33)

persons he finds atttractive, in a non sexual warmer to work on plaintiffs 'issues of offending, of how to
internet with others whom hs is sexually attracted to, bit not act on those urges'. The facility .and
clical team has rather indicated to try to teach plpaintiff skills with parsons he is not attracted to,
under tee pretense, and justifications that such skills will teansfesi itself to sexual persons he is
attracted to too. However, aLainriffs offending history shows, that he dossnt have issues with, engaging in
social situations with persons he is not attracted to, rather only those whan he is attracted to, so the
defendants treatment in this regard is not relevant, and infact ulterior methods cully doss nothing to
reduce plaintiffs risk, to reoffend, bacaass hs has the distorted belief that lie has no obligations to
persons he is not attracted to, and ten treat them any vay, including abusive, rather persons he is
stttrracted to, will throw himself at their mercy, leading to plaintiffs abases by not cecifering of when
to sigage or disengage, for s lade of better words becomes blinded ay false delusions of love. Defendants
treatment issuings, tring to teach plaintiff pro-social skills from and to persons he is not attracted to,
then is irrelvant, his 'issues' are only isolated to parsons he is attrracted to.
DafanrSants, Rushville Facility treatment Staff, Charts, have premitted antiquated moot legal
standards, of 'seas' treatemnt to be issued to residnets/cliazits at rushville facility, wdthout legal
standards as required under 14th amendment, adequate treatment, posing meaningful oppornuities to foe
released. Ihis can only then oome in the forms of 'sax offender spafic treatment' 'core/disclosurs/post
disclosure groups' and not soly mental health groups. Ps for reasonings explained, evualtions of
residnets/diants risk factors, state attorney general,

courts, will not allow, nor identify a

clienfs/residnets risk to re identifed as reduced, if hs only has participated in mental health groups.
Ihus Defendants placennt of ELaitiff, and other rushville residnsts only in aental health groups, i.e.
ancelory groins, power to diagne, claiming such assits with sax offender treatment, and only is required
to provide 'sane' treatment, than is csonstutionally offensive, bsuease any time a client/plsintiff is only
placed in these other mantel health groups, and absent p&acment of in sex offender spefic groups, i.e.
disclosure, post disclosure, (exaimign. they dont have space, avaiblity) then is dear that such program
and treatment issuings are infact ccnstutionally offensive, as does not provide adequate meaningful
treamtent far cane to be released, beucase in order for that to occur, has to engage in sax offender
treatment spefic groups, i.e. disclosure, post disclosure, to be considered for reieaass. ahus neking it
facofcal that only placement, at any time, only in mental health groups, bscuase of space, avaibility,
means than the program not just defendants, largly, cannot provide 'adecpruate' oonstutionally protected
treatment to afford one his release, bscuase hs essetialty has. to 'wait* for ‘avaibility1 into sax
offender treatment groups, and or, as plaintiff is subjected, to, placement soly in mental health groups,
blamed, falsly of Ms behaviors, as a guise, under defendants falsa claims of their professional jdugmerrts
issuings, simply beucasa plaintiff has been deam&d as 'disruptive1 in groups, without denoting the
truthfulness, bscuase he 'calls out others B***S**t, also becuase defendants dont want semsans like
plaintiff in groups wham challanges their treatment issuings, for correctness, rather want somaone in
treatment that will just do whtat they reed, to gat out, including as plaintiff explained, casing, or
selling then wsiat they want to hear, ignroing all vioaltions, indLuding methods that only make a client

Cm)

worse, bat cniy recusse of brainwashing a client, to do what ha needs to do to get out, ws.to.it realizing
but
'What he is doing is infact identified as not suffocant for the client to produce long term diangss.
the defendants toaeartnats reflect it is, which is why their refelciticns and judgments are falsa, lie,
and only to 'nates it lock good for than, and the state'.
Fbr reasonings stated herein, until! courts require systemic; changes agianst Rushville Clinical
Professional teeatment, and not mere corrections behind closed doors, or settling of one particular
irdivudals suit/litigation, which courts have obligation to do, to ensure cassation of such constuticnal
issues, in cases cited herein, and simply cannot rely ca ton making change, behind closed doors, beucasa
such cbsant ensure peonsnt and ingoing sysfe-nic tongas, such allows, at any given point, sac suai issues
to recurr, till written, court orders, via plaintiffs prevailing agianst such deferents is allowed.
Additionally, sgian, rtgasnaess of individual corrections to the ‘plaintiff 'baton:; closea
doors' is irasvlant. becoase this litigation. identifies facts proving of a larger systemic issue, tot
defendants treatment under non regulated issuings and tolcwancas of deftoants, and Rushvills Clinical
teams Professional Judmgents, (i.e. without actual, untoas records, like

of ouch

group sessions, to alieavte such incon-tot conclusive lablings, absent si»porting facts, including
defendants misusagas of authroity aid judngsnts) infect not only creates to multitude of constutional,
statutory, criminal vioaltions, sad as well as substantially departs from standard sex offeneder treatment
xego*tlions, aid not only, by courts allowing of defendants to prevail, vioaltes, and fails to comply witn
all such matianed , controlling, prscidantal case laws, and legal standards, to co.nstufi.onal rights, bat
infact endangers society, and civilians, because of such inoorrrset rreatrr.snt issuings, under the guise of
aie reduced to risk to reoffend, beeuase of usages, to signing off on, by professionals trsa-nteat was
complied with, bat not indciafiog af soon issuings wsrs made in correctness to oompl ien.ee.
Rahter such tseataaai i-euings, to. professionals judgments, to osiplastions, for reasonings explained
herein, bat in no way iimtied to, are not just an issue of substantial departures from ssx offender
treatment regastlLans, bat is endangering society, bsaoase of posaominatiy investing sni brainwashing
clients to celeive to comply with methods by them, to their issuings, that mostly identify as not
sufficant to produce long term changes among clients, which, is no wesnesr why clients get out cn
conditional release, and vioalte it, ana or offeno agian, nou as blam^ beucass of the clients choice,
rather faacuasa of the defendants treatment issuings ware premitted to be identified ss suffiesnt, wnen
further scortny into such facts, plain-riff i= giving rise to, is only making clients recidivism risk
worse.
I53=r-d OTi

faces, this Court snail also bo -ov.-sre -of bis other urr-sriying issues in

matter, spaffically, ss to cruet >-.dll find ia
through
zm

. temsm bsfea®,
»
tes&et p?t.?satlug.

a&zfrr! wotoinc ~I?' that this Plaintiff rss ossa

-&ss3-&j?nsfe. feslii&y csei-sd "Cassgs asssSsasf". M t£&sh

zomt win

being ghat of sisSr-so palled tBsaEBS.it. .s^sai-sasSs 'ctonih^bs.n3tiag'
•snctofully cstiplesiirig ireetstn*'« this

C?5)

which is a formal letter from such treatment providers, that indicates and refelcts the Plaintiff and his
family, spsfficslly his mother made marry attempts to cmmunciate concerns of sexual relapse to such
treatment providers, as claimed, in their 'discharge summary' that they would provide adequate aftercare.
However as clearly refelcts, they basically 'ignored* such. Pleas, and infact, as reflactant on tiieir
discharge summary, continsually 'blamed' the Plaintiff for and pushing responsibility onto 'his choices1.
cnee agian, this dynamic that is sisiualrly exhibited here, in this litigation, continues, that of the
irony that the so called treatment professionals brag about orovideing adequate sac offender treatment,
and such methods are 'so effective at treating' one to prevent any relapse, ironically when 'push oomes to
above1 such treatment providers push blame and responsibility onto the client, as if such is 'his personal
choices'. But is conflicting with such profesisonals finicings that their sex offender treatment
supposeably is 'so adequate' and 'prevents recidivisin if the client.craplies'. However such shows that
basically ssx offense treatment is basically not as represented to the public to be, that rather is
'throwing information at the client, then blaming him for his choices to do it, and not reoffend or
offend. Such representations then are false of sex offender treatment, that of such 'professionals'
supposeably doing 'everything to give adequate treatment'. Just as in this litigation. 5he other factor is
that THE "g-ffiRGR aCftDpEf" FALSFIED DOOIEFiEsmCSS TOO, JUST LIKE IN ISOS LITMja-? BY DEFESFailS, CLAIMING
CF iREMMagTr PR0C5B5S _AKD 03viPI£ftTICN, (i.e. their discharge suErr&ry') EOT -AS LMSS FfiCIS SHg.-jS(_(in the
attached appendix "P1) THAT BBOJSSS OF LBSSL, AMD FGLICICAL ISSUES (i.e. plaintiffs probation, expering) HE^
was "FASdaCKED" ffiROUGH TRBgSyEhT, LABUM3 HIM, BY PROFESSIONAL JUDCggHIS, THAT HE 5UPP505aBLg (XMPLEKTEI)
TRSagMSt^, BOX rTKARLY DID^. infect "Onarga academy'' blamed that if Plaintiff continues to engage in such
behaviors, than recommendations would be, ultimatly recconsending plaintiffs encerscaraticn to protect
community at large. THIS ALSO PROVES TSS llffiSPiyr-S rOIIVS, Ftp THIS UlGOiaT, AS PLMKSTFF
SPEFFICALLX THAI SUCH ISSUES PRESENTED HEREBY, SEENS IQ BE P5LIER3A1B ffiO m'bVllQNAL TO SABAICGE THE
PLAINTIFFS IBBaMSKT PROGRESS, gJT MAKS IT APPEAR AS IT 335 HIS F&UHP, 35f BEHAVIORS, ASP 1AC< OF

ETAINTIFF (XSffJNg) INDERTNaTry DOS TO HIS REPETIVE OFFENDING. HOWEVER IF THAT IS THE FACTS, THEN SOCH IS
RE^SCSC-IOS ID GRANT THIS NRIT, SIMPLY 3ECUASS, TEE SEXUALLY yggjgCTj^aSCSB.I^S, AND CCARiHI'-IEyl' >...

ut'inTTj

mth

ocnstuticnai, rights, sttfualtes heehsis,

***?ssr be bass os asfeyifliE

trskment to

AgKRD rr.TOgS MEBNINGEtg, QEKBMCEEEIES TO IMPROVE ENCQ3I TO BE Rg£fiS33****. Point being, if not yet
already obvious, that the laws, and legal standards that are authorized to detain/coamit this Plaintiff at
this Rushville Facility, is only under the caramsis that if he has meaningful oppurrsuity to rscieva
adequate treatment, and subsequentally be releassed, that being, if the underlying intent by the States
Attorney General is to keep plantiff pensantlally confined, regardless, but make it appear as if the
reasonings why he is confined is sirply due to his behaviors, and hightned reoffense risk, by such
docuamtnaticns by facility Staff and Defandants/Ersatasnt Professionals, then CLEARLY THAT SLEEKS TO THEIR
MALICIOUS AMD UNDERLYING INTENT IS TO OOKmiDSfiLLY PLACE PLAINTIFF IN SUCH SPOKES? OF "BfCRAPPEgS"
SHUKTI3S IS HIS 1REAIHENT, AND LAICY LIFS AX SUCH FACILITY VIOSum33 SUCH LEGAL, qUNSTUTIONSL RIGHTS, IN
ORDER TO MAKS IT APPEAR US !3E HAJNTIFgS FAULT, AS TO WHY HE CANT PROSffiSS, AMD BE RELEEASSHD, BUT

(■5b)

Faas, RATHER IS SUBSTANTIAL EVIDgCE TO AUJDE TO THE HAINTIFFS APPEARING FARFETCHED
I^&CT AQCURRZS, that being sum conflicting, non compliant treatment methods to standard
sax offender treamtent, oy the Defendnats/ Rushvills Treatment providers, are infact to dsleriabtly and
intentionally place plaintiff in entrapping situations, to than cherry pick his behaviors, actions,
oodneut, abssnt lac-t of complaince, and unprofessional, and illegal condcot on the Rushville, and
Dsfendants/dinical trsaatent providers part, to than provide docuemtation to the State Attorney, that of
the need to permantlly place plaintiff in confinment, aseting the undarlying motive, to use authroitv to
pernantally dantain plaintiff asking it appear as if its his behaviors, of why he cant be released whan,
infect its Eafendants/Clincial Treatment Providers, and Rushvills Staffs deliebrate and intentional lies,
felsfications of records, including treatment records, (by methods described herein this writ) that is at
such causa, of why plaintiff cannot progress, and cannot recieve adequate treatment.
1HDS B5JCASE TH5IAK5 IN frHICH GCVERN THE PLAINTIFFS GCSSFINMENr, AND CR CoMMIT^EdEST MUST AFFORD
HAINTIFF MEANINGFUL QFH3RNUICT 1C BE RELEASED, IF THESES C£5AR AIO nPT.Tm^JE cree-TT TO "SET DP" SHE
PLACsTIFP^.AS EVIliASCE ADXCTED THUS FAR SUGGESTS, -IQ PERMAMTALLy KEEP KIM CDUFINED, THEN frraaT.v HIS

glNFS^EQ? S£ THE SEXj^jOY yiOl^gST PERSONS CGMTTITMS.T' PCrmON IS PIRACT IILEGAL AMD qggKJCTa-IATxy
OFFTHSIVS, BELCAS5 ITS rCT AS FRCVIDED ID PROVIDE TREATMENT SO BE RELEASED, BUT UNDER THAT GUISE, TO
PSI1AMTLLT CONFINE THE PLAINTIFF, VIOLATirg D32EH5 OF (X^-SICTlOI'jAL AID I33AL RIGHTS AND THE

sfxuativ

VIOLENT PERS51S mMMITtwiT ACT IN ITSEIf.

CCSSIDUSION

Bbr the Searousnass of these issues presented herein -this writ, the countless clear, deleirhats
vioaltions of constutional, legal/statutory rights b y tea Defendants/Rushville rHnrriai Treatment teas,
Rushville Facility staff, including the State of Illinois Attorney General having participated in such and
being the cause of such illegal, and constutionally offensive acts, under toe guise of their
authroity, and professional judgment, this Supreme Court Shell Grant This petition, including but not
United to its remedies, involving up to, and inducing toe State of Til inch- Attorney General, and the
Court of cook County in which the Plaintiffs civil cccmitosnt is derived from.

(jn)

